<html>
<title> - HONG KONG'S FUTURE IN THE BALANCE: ERODING AUTONOMY AND CHALLENGES TO HUMAN RIGHTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   HONG KONG'S FUTURE IN THE BALANCE:
                   ERODING AUTONOMY AND CHALLENGES TO
                              HUMAN RIGHTS
                              
=======================================================================

                                HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2019

                               __________

 Printed for the use of the Congressional-Executive Commission on China

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

              Available at www.cecc.gov or www.govinfo.gov             
              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-154 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
              
              


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House					Senate

                                     

JAMES P. McGOVERN, Massachusetts,    MARCO RUBIO, Florida, Cochair
Chair                                JAMES LANKFORD, Oklahoma
MARCY KAPTUR, Ohio                   TOM COTTON, Arkansas
THOMAS SUOZZI, New York              STEVE DAINES, Montana
TOM MALINOWSKI, New Jersey           TODD YOUNG, Indiana
BEN McADAMS, Utah                    DIANNE FEINSTEIN, California
CHRISTOPHER SMITH, New Jersey        JEFF MERKLEY, Oregon
BRIAN MAST, Florida                  GARY PETERS, Michigan
VICKY HARTZLER, Missouri             ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                    Jonathan Stivers, Staff Director

                  Peter Mattis, Deputy Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. James P. McGovern, a U.S. 
  Representative from Massachusetts; Chair, Congressional-
  Executive Commission on China..................................     1
Statement of Hon. Chris Smith, a U.S. Representative from New 
  Jersey.........................................................     3
Martin Lee, founding chairman of the Democratic Party of Hong 
  Kong and former member of the Legislative Council of Hong Kong 
  (1985-2008)....................................................     5
Nathan Law, founding chairman of Demosisto and former member of 
  the Legislative Council of Honk Kong...........................     6
Mak Yin-ting, journalist and former chair of the Hong Kong 
  Journalists Association........................................     7
Lee Cheuk Yan, general secretary of the Hong Kong Confederation 
  of Trade Unions and member of the Executive Committee of Hong 
  Kong Civil Hub.................................................     9

                                APPENDIX
                          Prepared Statements

Lee, Martin......................................................    44
Law, Nathan......................................................    45
Mak, Yin-ting....................................................    46
Lee, Cheuk Yan...................................................    47

McGovern, Hon. James P...........................................    48
Rubio, Hon. Marco................................................    50

                       Submissions for the Record

Op-ed from the Washington Post, December 28, 2018 entitled ``The 
  World Must Stand Against China's War on Religion'' submitted by 
  Congressman Chris Smith........................................    51
Witness Biographies..............................................    53

                                 (iii)

 
 HONG KONG'S FUTURE IN THE BALANCE: ERODING AUTONOMY AND CHALLENGES TO 
                              HUMAN RIGHTS

                              ----------                              


                         WEDNESDAY, MAY 15, 2019

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:00 
a.m., in room 2255, Rayburn House Office Building, 
Representative James P. McGovern, Chair, presiding.
    Also present: Senators King, Rubio, and Daines, and 
Representatives Suozzi, Smith, Mast, and McAdams.

      OPENING STATEMENT OF HON. JAMES P. McGOVERN, A U.S. 
    REPRESENTATIVE FROM MASSACHUSETTS; CHAIR, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chair McGovern. The hearing will come to order. Welcome, 
everybody, to the Congressional-Executive Commission on China 
for the 116th Congress. The title of today's hearing is ``Hong 
Kong's Future in the Balance: Eroding Autonomy and Challenges 
to Human Rights.''
    Cochair Senator Rubio will be here shortly but said that I 
should start without him and he will come right in when he gets 
here. And we will yield to him.
    In recent years there has been a steady erosion of Hong 
Kong's autonomy that was enshrined in the ``one country, two 
systems'' framework established by the 1984 Sino-British 
Declaration and Hong Kong's Basic Law. Under ``one country, two 
systems,'' the Chinese government agreed to allow Hong Kong a 
high degree of autonomy with the ultimate aim of electing its 
chief executive and Legislative Council members by universal 
suffrage.
    The Chinese government reiterated this commitment as 
recently as 2007 when the standing committee of the National 
People's Congress stated in a decision that universal suffrage 
may apply to the chief executive election in 2017 and the 
Legislative Council after that. It was the reneging on this 
commitment to make Hong Kong more democratic that sparked the 
2014 Umbrella Movement pro-democracy protests that lasted 79 
days in the streets of Hong Kong.
     We continue to call upon the Chinese and Hong Kong 
governments to restart the electoral reform process and work 
toward genuine universal suffrage in the chief executive and 
Legislative Council elections in accordance with articles 45 
and 68 of the Basic Law and article 25 of the International 
Covenant on Civil and Political Rights.
    Since the Umbrella Movement protest, Chinese and Hong Kong 
authorities have ramped up efforts to stifle the pro-democracy 
movement by removing six legislators from office, banning the 
Hong Kong National Party, barring presidential candidates from 
running in elections based on their political views, expelling 
Financial Times Asia news editor Victor Mallet for hosting an 
event with pro-independence advocates, arbitrarily detaining 
and abducting Hong Kong booksellers--we continue to call for 
the immediate and unconditional release of bookseller Gui 
Minhai who is still detained in China--prosecuting and 
sentencing Umbrella Movement leaders and other pro-democracy 
advocates for peaceful civil disobedience, introducing a 
National Anthem bill that stifles free expression, and 
proposing new amendments to Hong Kong's extradition laws, which 
if passed will allow extradition to mainland China where the 
criminal justice system is regularly used as a tool of 
repression against political dissenters and rights advocates.
    And just this morning we learned that a Hong Kong court 
reached a guilty verdict against six pro-democracy advocates 
involved in the November 2016 peaceful protest of the Chinese 
government interpretation of the Basic Law concerning oath-
taking. Many regarded the interpretation as direct Chinese 
government involvement in the disqualification of certain 
legislators, including Nathan Law, who is here with us today. 
The ruling signals a further chilling effect on political 
participation, as people are deterred from taking part in 
demonstrations by the punishments levied against pro-democracy 
advocates.
    I believe it is time for the United States to consider new 
and innovative policies to support the people of Hong Kong. 
U.S.-Hong Kong relations are governed by the U.S.-Hong Kong 
Policy Act of 1992 that commits the United States to treating 
Hong Kong as a separate customs territory from the rest of 
China so long as Hong Kong remains sufficiently autonomous.
    In the last Congress, Chairman Rubio and then-Cochair Chris 
Smith introduced the Hong Kong Human Rights and Democracy Act. 
Among other provisions, the legislation would require the 
Secretary of State to certify on an annual basis that Hong Kong 
is sufficiently autonomous in order to justify special 
economic, financial, and trade treatment for mainland China 
under U.S. law.
    Considering the events of the last year, I am interested in 
hearing from the witnesses about what actions they believe the 
U.S. should be taking to support the people of Hong Kong. Over 
the years Hong Kong has prospered and become the financial 
center of Asia because of its strong commitment to the rule of 
law, good governance, human rights, and an open economic 
system.
    It is a city where the people have had the ability to 
advance new ideas and innovate. The erosion of this unique 
system threatens not only the people who attempt to speak out, 
but it threatens the economic vitality of the city itself. To 
be clear, we stand together with the people of Hong Kong and 
indeed all the people of China when we express our concerns 
about the policies of the Chinese and Hong Kong governments.
    Our focus today is doing right by the people of Hong Kong. 
Our panel this morning traveled all the way from Hong Kong to 
provide their testimony.
    [The prepared statement of Chair McGovern appears in the 
Appendix.]
    Before I introduce the panel, I want to yield to our 
distinguished member from New Jersey, Chris Smith, for any 
opening statement he has.

 STATEMENT OF HON. CHRIS SMITH, A U.S. REPRESENTATIVE FROM NEW 
                             JERSEY

    Representative Smith. Thank you very much, Chairman 
McGovern, and it is great to be serving with you on the China 
Commission as well as on the Lantos Commission. And thank you 
for holding this very important hearing, and I say the same to 
Cochair Rubio who I believe will be joining us very shortly.
    Over the past five years the CECC has shined a bright light 
on developments in Hong Kong. Senator Rubio and I and other 
Members of Congress, as you noted a moment ago, introduced the 
Hong Kong Human Rights and Democracy Act and work to 
reauthorize the State Department's annual report on Hong Kong 
until 2024. We plan to offer that bill again in this Congress 
and dare the American Chamber of Commerce to oppose it.
    Beijing's increasingly rough oversight of Hong Kong may not 
be as brutal as that pursued on the mainland, but it is no less 
pernicious. The goal is eroding Hong Kong's guaranteed freedoms 
and the rule of law and intimidating those who try to defend 
those basic rights.
    Chinese President Xi Jinping has concentrated power and 
suppressed opposition to mainland China like no leader since 
Mao Zedong. He has turned his attention to Hong Kong and taken 
steps to stifle political participation and speech through 
extraordinary intervention in Hong Kong's affairs.
    Within the last four years, the Hong Kong government has 
taken many unprecedented and repressive steps, as you know, Mr. 
Chairman, including disqualifying elected LegCo members, 
prohibiting individuals from running for office, banning a 
political party, jailing pro-democracy protest leaders--
including Nathan Law, who is here and will speak shortly--
expelling a Financial Times journalist, and did little when 
Beijing abducted Hong Kong residents.
    I agree with my colleagues and the witnesses here today. 
The U.S. and the international community should be pushing back 
hard against the proposed extradition amendment. It is both 
saddening and maddening that the government of Hong Kong, which 
inherited a rule of law system, may soon be extraditing 
individuals to China where justice is what is expedient to the 
Communist Party.
    I was glad to see a recent statement from the U.S. State 
Department saying that it was disappointed by the decision of 
the Hong Kong government to prosecute and convict several Hong 
Kong residents for organizing peaceful protests during the 
Occupy Central movement in 2014. Let me say this--
disappointment does not go far enough. In my opinion, Benny Tai 
and Chan Kin-man and others jailed for organizing peaceful 
protests should be considered political prisoners. We have some 
like Martin Lee who for decades not only has been arrested but 
has spoken out so bravely on behalf of human rights. I remember 
meeting with Martin years ago for dinner in Hong Kong. It's 
like 30 years ago. And he was predicting even then that unless 
changes were made, he was worried about the trajectory of where 
mainland China would take Hong Kong.
    As part of the Lantos Commission, its project defending 
freedom, I will adopt those two individuals I mentioned a 
moment ago as political prisoners until they are released.
    In conclusion, let me say that it is in everyone's interest 
that Hong Kong remain a free and prosperous bridge between 
China and the West. The city's unique vitality and prosperity 
are rooted in its guaranteed freedoms and the rule of law. But 
if Hong Kong is to become just another mainland Chinese city, 
we will have to reassess whether Hong Kong warrants special 
status under U.S. law.
    The arc of history does not bend toward justice without 
concerted action from all freedom-loving people. If the United 
States and the international community do not defend the rights 
and freedoms of Hong Kong's citizens now, there is little hope 
that freedom can take root in mainland China in the future.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Hon. Chris Smith appears in the 
Appendix.]
    Chair McGovern. Thank you very much.
    We are also joined by Congressman Tom Suozzi who is a 
member of this Commission from New York. We are honored to have 
him on the Commission and look forward to working with him.
    Let me introduce the panel. Martin Lee, founding chairman 
of the Democratic Party of Hong Kong, former member of the 
drafting committee for the Basic Law, and former member of the 
Legislative Council of Hong Kong. Mr. Lee will focus his 
remarks on the general trends of democracy and human rights in 
Hong Kong and Chinese government interference in the city.
    Nathan Law, founding chairman of Demosisto and former 
member of the Legislative Council. Mr. Law's remarks will shed 
light on youth perspectives of the democracy movement in Hong 
Kong and the challenges that they face.
    Mak Yin-ting, journalist and former chair of the Hong Kong 
Journalists Association. Ms. Mak will focus on press freedom 
and the treatment of journalists in Hong Kong.
    And finally, Lee Cheuk Yan, general secretary of the Hong 
Kong Confederation of Trade Unions and member of the Executive 
Committee of Hong Kong Civil Hub. Mr. Lee will share his 
experiences of advocacy for labor rights in Hong Kong and 
efforts to support democracy in mainland China.
    I want to thank you all for being here today. I mean, it 
really is an honor for us to welcome you to Washington, D.C. 
and to this hearing.
    Before I yield to Mr. Lee to begin, let me just say one of 
the challenges that we have on this Commission and also on the 
Lantos Human Rights Commission is trying to figure out ways 
that we can be helpful and that the actions that we take here 
are constructive and not counterproductive.
    You know what works and what doesn't work, and so we are 
going to rely on you to give us some guidance as to specific 
steps that we can take here to complement the work, and indeed 
the values, that you all represent. So thank you so much.
    Mr. Lee, we are going to begin with you.

  STATEMENT OF MARTIN LEE, FOUNDER OF THE DEMOCRATIC PARTY OF 
HONG KONG AND FORMER MEMBER OF THE LEGISLATIVE COUNCIL OF HONG 
                              KONG

    Mr. Martin Lee. Thank you, Mr. Chairman, for your opening 
remarks and those of Mr. Smith.
    I think we are going to push an open door, but still we 
need to push it. You have invited us very kindly to come here 
at a crucial time in Hong Kong because if this terrible bill is 
not stopped--hopefully the government will be pressed to 
withdraw it--Hong Kong will never be the same again.
    Because up to today there are no extradition arrangements 
between China and this country, and Canada, and Great Britain. 
But there are such arrangements with Hong Kong because it was 
thought by everybody, including Beijing, that their judicial 
and legal systems are not up to international standards. That 
is why there are no such arrangements with Beijing or mainland 
China from these countries, but Hong Kong is different. Hence, 
we have such arrangements.
    This has worked very, very well for many, many years both 
before and after 1997. But suddenly this government under Ms. 
Carrie Lam wanted to change, and they claim that it's because 
there is a loophole. But it is not a loophole. It was 
deliberate. That is why even up to today, before this bill was 
introduced, there was no threat to Hong Kong citizens and our 
visitors to Hong Kong.
    But the moment it is passed, there will be danger to 
everybody, and we cannot guarantee your safety anymore, anybody 
in Hong Kong, including the 85,000 American residents and those 
people working or living in Hong Kong because all that would be 
necessary to have anybody extradited back to mainland China is 
for the government to ask somebody to make an affidavit to say 
that you or this person has committed a criminal offense in 
China some many years ago.
    The court cannot protect anybody because the court can only 
act on prima facie evidence, and it is very easy to concoct 
such a case on prima facie evidence. Hong Kong has already seen 
a few abductions of people from Hong Kong to China. One of them 
was from a bookshop. When he finally came back to Hong Kong, he 
said, ``I want to tell the whole world this is not about me. 
This isn't about the bookstore. This is about everyone.'' And 
he is right.
    This bill that is before the Legislative Council can be 
passed into law very quickly. The government's intentions are 
to have it passed before the early part of July this year, but 
they could pass it earlier because they control the 
legislature.
    Of course President Xi Jinping wants to rule China by a 
law-based governance. But to him, judges exist, and the legal 
system exists, to protect the Party--the Chinese Communist 
Party. It is our duty to continue to preserve the rule of law. 
I have entered into politics because of this. I wanted to 
preserve the freedom of the people of Hong Kong.
    But we can certainly fight with everything we have. 
Recently you even saw a brawl in the Legislative Council. But 
we need the help of the international community. And we are 
very happy that you have invited us.
    I think businesses ought to know that once trumped-up 
charges can be used to bring people back, then large companies 
like Google will face the consequence that they will be forced 
to go back to China. Then the Chinese authorities can extract 
company trade secrets from them.
    The AmCham has spoken recently and we are glad that this is 
happening. But other people must speak up. We must all defend 
Hong Kong before it is too late. It is far better to defend 
something that we already have rather than to ask for new 
things.
    So this is not something difficult. It is certainly 
achievable. We are asking you to help us to preserve what is 
already given to us and promised to us by both the Joint 
Declaration and the Basic Law. Thank you.
    [The prepared statement of Martin Lee appears in the 
Appendix.]
    Chair McGovern. Thank you very much and we are also joined 
by Congressman Brian Mast of Florida. We want to welcome him 
here today.
    Mr. Law, welcome.

  STATEMENT OF NATHAN LAW, FOUNDING CHAIRMAN OF DEMOSISTO AND 
     FORMER MEMBER OF THE LEGISLATIVE COUNCIL OF HONG KONG

    Mr. Law. Good morning, Chairman McGovern and members of the 
Commission. Thank you for having us to speak here today.
    Well, it's been five years since the Umbrella Movement 
where we witnessed a huge encroachment on our liberty and our 
human rights. Mr. McGovern has spoken very clearly that our 
liberty is our strength. We face a lot of political retaliation 
on the Umbrella youth leaders. I myself am a very vivid example 
of that. I won election to the Legislative Council in 2016 to 
become the youngest-ever elected member of our legislature at 
the age of 23. Subsequently, I was ejected from the Council 
because of political intervention from Beijing and intervention 
in our judicial system. So it is a huge shame to our political 
system.
    Subsequently, Joshua and I were both locked in jail because 
of our peaceful participation in the Umbrella Movement. There 
are more scholars and professors also locked in jail because of 
peaceful assembly that they have participated in. So you can 
see it is a very clear signal that Hong Kong is no longer a 
place that really protects our human rights and our liberty.
    Joshua is also facing a verdict tomorrow. He may go back to 
jail to serve the sentence or he may not. It really depends on 
the verdict tomorrow.
    These are the examples to show that we've been facing huge 
difficulties for the past five years. But the extradition law 
amendment which is upcoming at the Legislative Council would be 
a huge threat or one of the greatest threats since the handover 
in 1997.
    When that happens, journalists, human rights lawyers, LGBTQ 
activists, and all these activists who support mainland China 
human rights activities will no longer be safe. And this goes 
to the heart of what Hong Kong people truly fear--that those of 
us who dare speak out to defend the human rights and democracy 
promised to Hong Kong will risk trumped-up arrest, torture, and 
unfair trials in mainland China.
    It is very important for the international community to be 
alert to what is happening in Hong Kong, our home, which has 
long been at the forefront of the clash of authoritarian and 
liberal values.
    Our generation is especially concerned about being sent to 
a place that does not respect human rights. Last year, two very 
low profile members of our organization, Demosisto, went back 
to China and were detained, taken to a hotel, and interrogated 
for hours. Their phones were confiscated, and they were asked 
to provide names of our members and details of our activities. 
There was no legitimate reason to detain them. There is a real 
possibility that this conduct will be normalized soon. We will 
expect to hear similar stories time and time again, or maybe 
even not, because they were being forced to confess on camera 
and they have been put in jail. Hong Kong is no longer safe for 
them.
    Yes, for the upcoming amendment it is an uphill battle. But 
we can definitely win and reverse the trend in Hong Kong. I 
think--here is our opinion--we need international support.
    This position of, again, saying this amendment should be 
made very explicit in discussions with the Chinese government 
to ensure that Beijing understands the potential economic 
consequences if it doesn't uphold its promise to Hong Kong 
people--I also hope that more Members of Congress will be 
willing to place human rights at the center of future American 
policy on Hong Kong.
    I came from Hong Kong to explain the Chinese Communist 
Party's escalating efforts to undermine our autonomy and our 
open and free tradition. A victory for the oppressive Beijing 
government is a victory for authoritarians everywhere in the 
world. A victory for Hong Kong people is a victory for freedom 
everywhere in the world.
    So it is my hope that the Hong Kong Human Rights and 
Democracy Act can garner more support in the Congress. This 
bill will send an unmistakable signal to China and the world 
that this country remains committed to the universal values 
that we share. Thank you.
    [The prepared statement of Nathan Law appears in the 
Appendix.]
    Chair McGovern. Thank you very much.
    Mak Yin-ting, welcome.

 STATEMENT OF MAK YIN-TING, JOURNALIST AND FORMER CHAIR OF THE 
               HONG KONG JOURNALISTS ASSOCIATION

     Ms. Mak. Thank you, Mr. Chairman and the Commission, for 
the concern about Hong Kong.
    Hong Kong has long been a beacon for press freedom and 
publishing in Asia, especially in relation to China, where 
there is no free media.
    According to the government, there are 68 dailies, over 600 
periodicals, and 6 electronic media. There are nearly 3,000 
local and international journalists in Hong Kong. Many 
international media such as the New York Times, CNN, Wall 
Street Journal, Reuters, and Bloomberg have Hong Kong as their 
regional hub.
    But as a veteran journalist and long-term freedom advocate, 
I know that our media freedom is not as healthy as these 
figures would suggest. Freedom of expression and of the press 
have taken a sharp downward turn in Hong Kong, with the dive 
particularly apparent since President Xi Jinping took power in 
2012.
    Self-censorship is on the rise as China's influence 
increases--whether it is through the co-option of media workers 
or the buyout of media outlets. Sometimes mere public 
statements by Chinese officials are enough to influence the 
reporting by the Hong Kong media without the need to issue 
direct instruction.
    According to a survey conducted by the Hong Kong 
Journalists Association early this year, 70 percent of media 
workers who responded said they felt uneasy when they reported 
opinions that deviated from the stance of the central 
government in Beijing. Twenty-two percent of journalists said 
they had come under pressure from supervisors while reporting 
on issues related to Hong Kong independence, which have been 
denounced by the central government.
    The figures carry even more weight when we consider that 
political reporters who will report on these issues make up 
only a small percentage of the total number of respondents. 
Adding to these existing pressures, the changes to Hong Kong's 
extradition law will threaten journalists because it will chill 
reporting, make reporters and editors vulnerable to pressure 
from Beijing, and hollow out Hong Kong's status as a global 
information hub.
    With incitement of any crime listed in the schedule of the 
bill, and therefore an extraditable offense, the media--whose 
nature is reporting on things that have impact--can easily fall 
foul of it. What is more, the Chinese government is notorious 
for making up offenses to stop the media from reporting.
    The legal changes will mean Hong Kong can no longer be a 
safe harbor for reporters covering sensitive news in mainland 
China because the proposed amendment allows the Chinese 
government to request the return of their targeted reporters. 
The natural consequence will be either a decrease in the 
quantity and quality of news on China, or the exodus of 
valuable news workers to other places from which China cannot 
request extradition, or both.
    These outcomes will devastate Hong Kong as an information 
and financial center for the region. It is, therefore, in the 
interest of Hong Kong, the U.S., and other parts of the world 
to urge the Hong Kong government to withdraw the bill.
    Thank you for your support for press freedom in Hong Kong.
    [The prepared statement of Mak Yin-ting appears in the 
Appendix.]
    Chair McGovern. Thank you very much.
    Cheuk Yan Lee, welcome.

STATEMENT OF LEE CHEUK YAN, GENERAL SECRETARY OF THE HONG KONG 
   CONFEDERATION OF TRADE UNIONS AND MEMBER OF THE EXECUTIVE 
                COMMITTEE OF HONG KONG CIVIL HUB

    Mr. Lee Cheuk Yan. Thank you, Chairman McGovern.
    We are here because Hong Kong is not okay. This year is the 
30th anniversary of the June 4th massacre. Thirty years ago, I 
was a young labor democracy activist. It was a hopeful time 
when we thought that the students, the people of China would 
rise up to demand democracy from this Communist Party regime. 
In Hong Kong we had also 1 million people marching to support 
that. And it was also the aspiration of the people of Hong Kong 
because, ``Oh, we are going to return to China.''
    Now China is changing. But it was a time of hope and 
despair when the tanks came rolling into Tiananmen Square, when 
the army began to shoot, and the people across China--thousands 
of people died. It was a very despairing time for the people of 
Hong Kong because we were going to return to this regime in 
1997.
    Since then, I vowed to myself I will spend my lifetime 
changing China before China changes Hong Kong, and this has 
been the case. I was the general secretary of the Free Trade 
Union for the past three decades, fighting for labor rights in 
Hong Kong, also supporting Chinese workers, their fight for 
their independent unions, and their right to freedom of 
association.
    Also, I have been organizing the candlelight vigil and the 
support work for China democracy over the past 30 years. I 
think everyone will remember the candlelight vigil when 
hundreds and thousands of people in Hong Kong lit up a candle 
to remember the victims.
    This is a fight against the Communist Party's effort to 
wipe out--wipe out--the whole memory of what happened on June 
4th because they are the ones that kill their own people. This 
fight continues. Now all of Hong Kong is under even more 
threat.
    I am very thankful to Chairman McGovern and Congressman 
Smith for mentioning the political prisoner problem now and 
mentioning that today six activists are going to be convicted 
again for their peaceful demonstration. This is now Hong Kong.
    And in this tension of the ``one country and our Hong Kong 
system,'' Carrie Lam came out and said that, ``Oh, Hong Kong 
needs an extradition agreement.'' This is horrifying because 
what that means is that people like us, activists supporting 
China democracy, China free labor movement, teachers, or NGO 
workers, preachers, anyone that wants to do something in China, 
Beijing, or Hong Kong is no longer safe. Hong Kong is no longer 
a safe harbor for businessmen, professionals, NGO workers, 
activists--safe no more.
    And that is exactly the problem that we are now facing with 
this threat of the extradition agreement, when you can be 
transferred back to China to be on trial with trumped-up 
charges or televised confessions. And this is what we are 
facing.
    And in this fight, we are hopeful--I want to show 130,000 
people coming out to march on the streets [shows photo] to 
protest against this extradition agreement. So we are 
fighting--professionals are speaking out. We need the 
international community to speak up before it is too late.
    I am very glad to hear that the Hong Kong Human Rights and 
Democracy Act is in the pipeline. I hope that it can be passed 
as soon as possible to support our fight against the erosion of 
Hong Kong as a free and international city and also to stop 
this bill--and we need all the support to stop it because if we 
win this, then Hong Kong is relatively still under threat but 
safe to continue our fight. It is very important that we stop 
this bill. Thank you.
    [The prepared statement of Lee Cheuk Yan appears in the 
Appendix.]
    Chair McGovern. Well, thank you very much. And I think I 
speak for the entire panel here when I say thank you for your 
very powerful statements. We appreciate your candor, and we 
appreciate your courage. I have to tell you I think what you 
have done, and what you continue to do, is extraordinary.
    We take a lot for granted in this country: our basic 
freedoms, our ability to say what we believe. And I think the 
worst thing that could happen to any Member of Congress is we 
get a bad news article in the press. But you literally put your 
lives on the line, and we are very grateful for that.
    We've just been joined by Senator Angus King from Maine. 
But Members of Congress are going to come in and out of this 
hearing on and off. And some people can only stay briefly.
    But I want to yield to my colleague, Congressman Suozzi of 
New York, because he has another hearing to go to.
    Representative Suozzi. Thank you so much, Mr. Chairman. I 
want to thank you for convening this hearing today. I want to 
thank Ranking Member Smith for his great work on human rights 
for so many years in China and elsewhere, and all of my 
colleagues.
    I want to thank the witnesses. Thank you so much for being 
here today, not only for testifying, but for--I am sure you had 
to prepare to come here as well. And we're very grateful that 
you have done so much work--and probably at great personal risk 
in many instances--to speak out, and to stand up, and to be 
here with us today.
    I think that in the United States of America and in many 
places throughout the world, we've all believed for the past 30 
years that the more China was exposed to the Western World, the 
more they were exposed to America and to our way of life, to 
capitalism, to dealing with democratic countries, that they 
would over time adopt some of the values that we have in our 
country and in the Western World. That simply hasn't happened. 
It is clear from your testimony today that that hasn't 
happened. It is clear from the way they treat so many different 
people throughout China--not just in Hong Kong, but from the 
Uyghurs, to Tibet, to everyone that is a minority that they 
treat so poorly.
    What would you like us to do? What would you like to see 
the members of this panel do to help you to get the word out 
that China is not just a threat to America because of our trade 
dealings--which is a real issue--is not just one of our 
greatest strategic adversaries in the world, but also threatens 
human rights of people not only in China and in Hong Kong, but 
throughout all the places in the world they're trying to gain 
influence in these days, that they just do not have respect for 
the individual.
    So Martin, you have been doing this for many years now. 
What would you like to see us do specifically?
    Mr. Lee. Holding a session like this is a good beginning. 
But of course, I think it's important to tell the 
businesspeople that it is in their interest that human rights 
for all Hong Kong people and other people living in Hong Kong 
are preserved under the law. I think the businesspeople are now 
waking up as a result of this because they now realize that any 
one of them could be brought back to China for having paid 
bribes many, many years ago. Then they would be made to confess 
before TV cameras. They have seen that, and so they are now 
waking up. But they rather we fight the fight for them. They do 
not want to stick their necks out. They don't want to offend 
China because they want to continue to do business in China.
    I reckon, therefore, that the businesspeople must be 
persuaded to come around to our cause and your cause so that 
they understand that it is really in their interest too that 
human rights are preserved for everybody.
    Of course, I would like to remind you of the famous words 
of Martin Niemoller who said after the Second World War when 
the Nazis came, ``First they came for the Communists and I did 
not speak up for them,'' etc. And finally, of course, they will 
get to the businesspeople.
    So we need their support. Otherwise, your bill can be 
blocked, our efforts can be blocked, and Beijing will choose to 
be on their side. And they would have spokesmen for them, both 
in Hong Kong and here.
    So we must win over the support of everybody. Of course, 
what is good about the Hong Kong issue in the States is that 
Hong Kong has always been a bipartisan issue. That is why I am 
happy to see Members of Congress from both sides--and may that 
continue.
    Representative Suozzi. Thank you, Martin. Thank you very 
much.
    Nathan, do you want to add anything to that or what you 
would really like--Martin wants to see us try and get the 
business community more involved in this. What would you like 
to see us do?
    Mr. Law. Well, thank you for the question. I think Martin's 
remark on that is very precise, because we are having strategic 
planning on that because if we have to overturn this 
extradition amendment, we need support not only from the pro-
democracy camp, but also from the pro-business camp to let them 
stand up for themselves.
    I think we have made very explicit, we think that the Hong 
Kong Human Rights and Democracy Act--which I think will be 
introduced--yes, I think it needs much more support in the 
Congress. And I think the human rights situation in Hong Kong 
and also around China should be put on the table during 
negotiations with China. We need a thoroughly orientated policy 
wherein we can defend the values of the liberal world. I think 
it is very important for us and for people who support 
democratic values. So I think in the fight for Hong Kong, we 
need more support and we need to be in negotiation with the 
Chinese government.
    Representative Suozzi. Thank you.
    Ms. Mak.
    Ms. Mak. Well, as a journalist, we know very well that 
freedom of the press and of expression are the twin brothers of 
democracy. Without one, the other cannot survive. So it is very 
important to have democracy and freedom in Hong Kong as well 
as, of course, human rights. They are part of human rights.
    So it is important that if the U.S. Government, or any 
government that will deal with China, can put freedom, 
democracy, human rights at the heart, then it will not just 
benefit Hong Kong; it will benefit the media as well. As a 
matter of fact, it will benefit the whole world because 
businessmen do business on clever judgment, which relies very 
much on the free flow of information.
    If the free flow of information is stifled, then there will 
be no clever judgment and even the decisions will be distorted. 
So that is why it is also in the interest of business to have 
more freedom and democracy in Hong Kong.
    Representative Suozzi. Thank you so much. Is it okay if I 
ask Cheuk Yan to continue?
    Chair McGovern. Yes, please.
    Representative Suozzi. Continue, please.
    Mr. Lee Cheuk Yan. First, I want to tell you all about the 
urgency of the situation because Carrie Lam is now going to ram 
the bill through before July. And if they are even more 
ruthless, they can just go direct to LegCo without going 
through a bills committee, and pass----
    Representative Suozzi. How will the people of Hong Kong 
react to that?
    Mr. Lee Cheuk Yan. No. We have 130,000 people on the street 
[shows photo]. And this is not our first march. We then will 
have the June 4th Canada vigil. We will continue to mobilize 
people in Hong Kong to oppose this law.
    So there is an urgency here. We hope that things can be 
done as soon as possible, including today's testimony, very 
important. How about having a congressional delegate to Hong 
Kong to tell Carrie Lam, ``What are you guys doing? You are 
putting American citizens in Hong Kong at risk of 
extradition.''
    It is not just about the people of Hong Kong. It's about 
any foreign national residing in Hong Kong, working in Hong 
Kong--teachers, preachers, anyone will be threatened by this 
law. So you have every legitimate reason to do that. Also the 
Human Rights and Democracy Act--if they can speed up a bit on 
introducing, then it is also a very important message to Carrie 
Lam, so I hope all these can be done. Thank you.
    Representative Suozzi. Well, I want to thank all of you so 
much. Mr. Chairman, I apologize. I have to go to another 
hearing. We are going to do whatever we can. We really need to 
get this to break into the mainstream thought of the country in 
the United States, quite frankly, because people don't realize 
what's going on, the fact that six people today are going to be 
convicted and treated so poorly for trying to express their 
political rights. I just don't think people realize that is 
happening.
    I want to thank you so much for being here today and I want 
to thank you, Mr. Chairman. I apologize to my colleagues that I 
can't stay.
    Chair McGovern. Thank you. No. We are thrilled you are 
here.
    Before I yield to Mr. Mast, I just want to build on one 
observation that Martin Lee raised, and that is the bipartisan 
nature of this Commission and the people who are sitting up 
here. I mean, you've got a moderate senator from Maine, and 
you've got a conservative Member of Congress from Florida, and 
a conservative-to-moderate Member from New Jersey and----
    [Laughter.]
    Chair McGovern [continuing].--You've got a liberal, some 
would say too liberal, congressman from Massachusetts here. But 
the bottom line is that, you know, there is not a lot we always 
all agree on. But we agree on the importance of human rights in 
Hong Kong, and we have a genuine concern that brings us 
together on this issue.
    I think that's really important to note because if you have 
a coalition like this, you can get almost anything done in this 
Congress. So I'm happy to now yield to Mr. Mast.
    Representative Mast. Thank you, sir. I appreciate it, and I 
appreciate the bipartisan nature of this Commission. I 
appreciate you all taking the time to come here and speak to 
us.
    We have an amazing nation that we sit in right now where I 
daresay not one of us on this dais fears any sort of human 
rights retaliation for whatever our opinions are, whatever we 
express up here. Our press, all the press in the room--I 
daresay none of them fears human rights retaliation, regardless 
of what they go out there and report. That's not something that 
exists in every corner of this Earth, as each of you have 
discussed specifically within China.
    So I want to ask for each of you in--because there's a 
saying, a picture is worth a thousand words. I don't see any 
photos of this. In the most graphic and vivid explanation that 
you can give, what have you witnessed, what have family members 
witnessed, what have coworkers witnessed, people you know--what 
can you tell us are the human rights abuses that you fear in 
terms of retaliation?
    Mr. Martin Lee. They have certainly not tried to--they have 
not tried to kill people unlawfully for this thing. But they 
have now done terrible things to the common law system. For 
example, six legislators, including Nathan Law, were 
disqualified and thrown out of the legislature by the standing 
committee of the National People's Congress interpreting an 
article of the Basic Law. But when they took the oath, even the 
president considered it to be fine. And then they took office 
as legislators, but one year later the court threw them out.
    You can't really blame the judge because their 
interpretation would turn something which is lawful into 
something which is unlawful. And they gave it retrospective 
effect. Under the common law, you cannot have that. If today I 
do something which is in accordance with the law, fine. You 
cannot, by changing the law tomorrow, convict me of an offense 
which wasn't even there when I did it. And yet they did that.
    So the six legislators lost their seats. This damage to the 
common law is a terrible thing, and of course, they prosecute 
people selectively.
    The organizers of the Umbrella Movement and the student 
leaders, they are the best of our people, and they are put into 
prison. And I have said that I would light a candle every night 
and pray for them until the last one of them is free.
    Representative Mast. Mr. Law, Ms. Mak, Mr. Lee?
    Mr. Law. Thank you for your question, and it reminds me of 
a chat with Lam Wing-kee, who was abducted to mainland China. 
He's one of the five booksellers who were abducted in 2015. He 
received a month-long interrogation locked in a small room. It 
was basically mental torture for him. And a lot of----
    Representative Mast. Describe that for us. I am familiar 
with interrogation, enhanced interrogation, and torture. So 
describe it for us.
    Mr. Law. That is really unimaginable for people living in 
Hong Kong.
    Representative Mast. That is why you need to describe it 
for us.
    Mr. Law. Yes, he had to live in a very small room and was 
being questioned, not enough sleep, and being locked in a room 
that--he suffered from mental illness. So I think it is very 
important for us to remind ourselves these things have never 
happened in Hong Kong, never publicly disclosed, and these 
things will be normalized and legalized after the extradition 
bill is passed.
    I am not the one who was abducted, and it is quite 
difficult for me to really describe the fear, but you could 
really look into his eyes when we have talked with him. So I 
think it is very important for us for the Congress to have a 
strong statement, a strong bipartisan statement and to call our 
chief executive Carrie Lam directly to talk about our concerns. 
Also act immediately in order for us to stop this bill.
    I think it is really achievable. It is just a law passing 
in Hong Kong, but it will destroy Hong Kong as a safe harbor. 
So I think it's time for prompt action, and I think otherwise 
these abductions will happen again and Hong Kong will no longer 
be safe.
    Representative Mast. Thank you, sir. If either of you has 
something to add about what happens when you're locked in a 
small room, I would be happy to hear. If not, sir, I am happy 
to yield back.
    Ms. Mak. Well, as a reporter, I have not been locked up, 
but I think having to write a remorse letter when you are 
caught by the Chinese public security officers--this is quite 
common among journalists covering news in China. And that's why 
we feel safe when we're back in Hong Kong because after writing 
the remorse letter, they will usually let you go free. But that 
will not be the case after the extradition bill is passed. And 
the reason I say that the Chinese government is notorious for 
making up offenses that try to stop the media from reporting, 
actually they are using--they will not call it retaliation--
they call it a tool to train people to get what they want--for 
instance, people who have not committed any offense in Hong 
Kong, but who cross the border, will probably be interrogated 
by the public security officers.
    I have seen several cases like this. For example, there is 
a publisher in Hong Kong publishing magazines which are 
critical of the Chinese government. He was arrested when he 
crossed over to the mainland. And they tried to charge him with 
illegal publishing. One of the printers went over to China and 
was detained for four months, with them only asking her about 
the copies, how many copies were published for this magazine. 
What was wrong with the printer? She had done nothing wrong, 
but the Chinese officials wanted to get the figure from her, so 
she was detained.
    So you can see that all these kinds of things will happen 
if the law is passed in Hong Kong. So it is very important to 
stop China from instilling fear in Hong Kong people because 
they know very well that once the bill is passed, no one can 
escape. You can only escape if you are not targeted.
    Mr. Lee Cheuk Yan. Over 30 years ago I was arrested for 
three days after the Tiananmen Square massacre. And I can 
always remember the fear that I had when I faced the regime 
interrogating me in a small room. I am lucky not to have been 
tortured, because the people in Hong Kong saved me, and I was 
able to go back to Hong Kong after three days of detention in 
Beijing.
    But I also remember another fighter for democracy in China, 
Li Wangyang. He was a labor activist who was jailed for 20 
years. And after 20 years in jail, he was blind, crippled, and 
deaf. And then he went to the hospital because of some illness, 
and he was interviewed on TV in Hong Kong and he said, ``For 
democracy, I will not be fearful, and I would fight even if I 
am beheaded.''
    And then, one day after the TV interview, he was found 
dead, a ``suicide,'' in his hospital ward. But it was obviously 
a false suicide because I remember the rope was like this 
[indicating] and supposedly he jumped from his bed. But his 
sandals, his feet, his foot was just flat on the floor, and not 
hanging. And we said this must be a false suicide. Someone 
killed him and then pretended that it was a suicide--after he 
said that for democracy he will fight on even until his death, 
and even if he is beheaded.
    So you can see this is the regime that we are facing. And 
imagine we have been listening to all these horror stories in 
Hong Kong. And what will happen with this extradition 
agreement? In Chinese, there is a saying, ``Send the sheep to 
the mouth of the tiger.'' And this is exactly what this 
extradition agreement is doing.
    Representative Mast. Thank you, sir. And welcome to the 
Senator from Florida.
    Chair McGovern. Thank you very much. I am happy to yield 
now to the distinguished Senator from Maine, Senator King.
    Senator King. Thank you. First, I want to say that I 
visited Hong Kong, but it was 20 years ago. It was one of the 
most vital, electric, alive, entrepreneurial places I have ever 
visited on Earth. And just met people--it was just a wonderful 
experience.
    So that leads me to my first question. Compare Hong Kong in 
1997 to today--and I'll give you a scale. Give me a 1 to 10, 1 
being pre-handover, and 10 being what the Chinese are doing to 
the Uyghurs. In other words, a sort of authoritarian scale. 
Where is Hong Kong today? Give me a number between 1 and 10--1 
being pre-handover, 10 being extreme authoritarianism.
    Anybody want to take a swing at that?
    Mr. Lee Cheuk Yan. I will try to answer that, though it is 
not easy. But for sure, I think we have the rule of law in Hong 
Kong, but Xi Jinping--they want to do it by rule by fear. And 
the fear factor is now really harming Hong Kong as a vibrant 
international city. But on a scale----
    Senator King. So it is not what it was in 1997?
    Mr. Lee Cheuk Yan. In 1997, of course, there was a 
confidence crisis, but we were able to maintain our way of 
life, you know, continue to protect the rule of law. But after 
Xi Jinping, it is erosion. The deterioration is getting very 
fast. And to make it into a scale, I don't--you know the Uyghur 
situation is probably--is really far more horrible, of course. 
You know, with 1 million in the concentration camps. That is 
horrible.
    But I think Hong Kong--I don't know . . . Martin? Maybe we 
are on the scale of 4. And if the law is passed, we will go to 
the scale of 6, maybe. I don't know. It depends on the 
extradition agreement. If that agreement is passed, it would 
sure put the scale, you know, to a more fearful and more horrid 
authoritarian state. And we are already in the middle of it, I 
would say.
    Senator King. What is the role of the Chinese government in 
the debate over the extradition agreement?
    Mr. Lee Cheuk Yan. Carrie Lam tries to say that she is the 
one that pushed it forward. But then gradually, you know, the 
Chinese government began to weigh in and say that they also 
support this law, but not in the way of very strongly backing 
Carrie Lam. They have made some statements, but not at the 
highest level like Xi Jinping. So we hope that there can still 
be room for opposition and room for changes under this law.
    Senator King. What's the timeframe on the extradition law? 
When is it likely to either happen or not happen?
    Mr. Martin Lee.  The government says certainly at the 
latest, early July of this year. But since they control the 
legislature completely, they could actually bring it forward. I 
think if they really want to do it, they could do it within two 
weeks. This is the state of affairs.
    Senator King. And what would the reaction of the people of 
Hong Kong be? Are they attuned to what's happening here? Are 
they aware of this potential threat?
    Mr. Martin Lee. They are more and more aware of this, 
because the starting point is, nobody thinks they are a 
fugitive offender. If I have not committed any offense, why am 
I an offender? Why am I a fugitive?
    So it takes a bit of explaining to them that all it takes 
is to get somebody in mainland China to swear an affidavit to 
say that you committed a certain offense in China many years 
ago and that is good enough. The court can't save you. So they 
are awakening.
    But of course Hong Kong has always been an international 
city as you found out yourself. So we should look at Hong Kong 
with that standard to begin with and see the damage to this 
international city which has been occurring. And we----
    Senator King. That was my first question. Where are you on 
the road to authoritarianism?
    Mr. Martin Lee. To me the most important thing is the rule 
of law because without it, no freedom is safe. And when it 
comes to the rule of law, I'm very distressed because not so 
long ago they did a very terrible thing in the co-location, 
which is really Hong Kong wanted to join with China in express 
rail, which will bring Hong Kong through Guangzhou to Beijing. 
Now that's a good thing.
    And they want to make it easier for travelers, so that 
people coming into Hong Kong, and people leaving Hong Kong 
could have their customs and everything checked at the same 
location. That's fine. I mean, you do it with Canada, and the 
Euro train in England and France.
    But they did it in such a way which is ridiculous. They 
turned the area in the terminal into an area belonging to the 
mainland. So the Hong Kong laws no longer apply to that area, 
just mainland laws. So anybody found there, if you are engaged 
in the fight, they would bring you back to mainland China for 
investigation. If they believe you committed an offense, they 
would try you in a Chinese court according to Chinese law, and 
if you're convicted, you will be punished according to the laws 
of China. And if they convict you of murder, this is the death 
penalty.
    They did it in the name of making it easier for everybody. 
To me Hong Kong was the oasis, in terms of the rule of law, 
compared with mainland China, which is a desert in terms of 
rule of law. Hong Kong is a beautiful oasis.
    Senator King. A more elegant way of stating what I tried to 
get in. Oasis versus desert.
    Mr. Martin Lee. Right.
    Senator King. Thank you. Thank you, Mr. Chairman.
    Chair McGovern. Thank you very much. Happy to yield to the 
distinguished Cochair, Senator Rubio.
    Cochair Rubio. And I thank you. I profusely apologize for 
being late. It took me longer than expected to convince my bank 
that that was not me racking up charges in Los Angeles last 
night.
    [Laughter.]
    Cochair Rubio. So I apologize. Only I could do that. But 
first of all, I want to thank the Chairman for convening this 
important hearing.
    As we've observed over the last five years, Hong Kong's 
autonomy and freedoms that are guaranteed by the Joint 
Declaration and their Basic Law are just eroding rapidly due to 
the interference of the Chinese Communist Party's government in 
the affairs of Hong Kong.
    I want to thank the witnesses. You're all true champions of 
freedom and democracy. And you appear today, as we know, under 
both threats and risk to yourself and to those you care about.
    The last year has been particularly troubling. Since the 
last time this Commission had a hearing on this issue, the Hong 
Kong government banned the National Party, disqualified 
political candidates from office for their political views, 
they expelled the Financial Times news editor, and they 
sentenced the 2014 Occupy Central organizers and other pro-
democracy leaders to prison terms of between 8 and 16 months.
    We just learned this morning that the Hong Kong court has 
issued guilty verdicts for six pro-democracy advocates who 
participated in the 2016 demonstration against the Chinese 
government's interpretation of oath-taking that led to the 
disqualification of the pro-democracy legislators.
    Most recently, and equally concerning, are amendments to 
the extradition laws that are being--at this moment--debated in 
the Legislative Council and protested in the streets. Mr. 
Martin Lee's apt description of the proposed amendment is that 
it will ``legalize kidnapping.'' Legalized kidnapping--that 
should be something that should concern everyone. That 
includes, by the way, 85,000 U.S. citizens who are living in 
Hong Kong.
    It's one of the reasons why I will be reintroducing the 
Hong Kong Human Rights and Democracy Act which updates our Hong 
Kong policy and establishes punitive measures against 
government officials responsible for suppressing fundamental 
freedoms in Hong Kong.
    I want to make this point. We have important challenges in 
our relationship with China. We have a variety of issues that I 
hope we can find agreement on, but the future of Hong Kong and 
human rights in general cannot be sidelined as part of those 
conversations. And I continue to encourage the administration 
and others involved in these talks to make that point.
    I want to ask a question for the panel, in general. You may 
or may not be aware that the CBS television network recently 
censored eight minutes out of a show, ``The Good Fight,'' 
because it contained a cartoon that criticized American 
corporations that are bowing to Chinese censorship. CBS claimed 
that it feared for the welfare of its journalists in Beijing if 
a critical cartoon were broadcast on an entertainment show in 
the United States.
    So think about that. A major American network censored a 
television show. It was afraid to offend China and as a result 
put our journalists at risk operating within China.
    I think it's a good opportunity to talk a little about 
self-censorship and how it manifests itself in Hong Kong. Can 
you give us examples of how the media and news have self-
censored content to avoid upsetting the Chinese Communist 
Party?
    Ms. Mak. Okay, first I would like to respond to Mr. King. 
You're asking about the Index. Perhaps I can give you some 
figures about press freedom. I am not talking about 
authoritarianism, but you know the more freedom, the less 
authoritarian. And according to the Reporters Without Borders 
survey, I think in year--around the handover, the ranking of 
Hong Kong among the world was 20-something. If my memory is 
right, it was 28. But then in 2012, it dropped to 54 already. I 
mentioned 2012 because that is the year that President Xi 
Jinping took power. Now only 6 years later, in 2019, we dropped 
to 73 around the world out of about 180 countries in the 
survey.
    So that should tell you how bad the situation is. In the 
survey conducted by the Hong Kong journalists themselves, the 
press freedom marks have never got past--that is, it's always 
lower than 50. So you can imagine the whole situation.
    Back to the self-censorship one. As I just said, in the 
survey we conducted earlier this year, 22 percent of 
journalists responded that they are under pressure from the 
supervisor when they report on the Hong Kong independence 
issue. There is no direct instruction saying that you cannot 
report on that. It is a non-story, but the Chinese government 
officials always think that people should not talk about the 
independence of Hong Kong. Blah, blah, blah.
    And 22 percent say that they get pressure from the 
supervisors--and take into consideration that there is--when we 
say 22 percent, it means that the absolute figure is around 112 
respondents from the media circle divided into 30 outlets. That 
means three to four journalists in each media outlet are saying 
that they feel pressure. So it is almost all political 
reporters who cover this kind of news who are under pressure, 
and you're talking about self-censorship. Seventy percent of 
the respondents say that they feel unrest, uneasy when they 
report things that are critical of the Chinese government 
officials in Beijing. Basically, the ``one country, two 
systems'' . . . they feel uneasy when they report comments from 
other people.
    I know that some academics who poll democratic, or who 
would at least be regarded as more independent, and not 
kowtowing to the Chinese government, were blacklisted by some 
media outlets. And this kind of self-censorship is not just by, 
you know, apart from public statements from government 
officials; sometimes the pressure by Chinese officials is 
imminent too. I know that in the past, the Chinese official 
might just talk to the ownership of media outlets about, you 
know, ``Oh, you guys are saying something that does not 
coincide with the Chinese government's stance.''
    But now the call will be made directly to the newsroom--to 
individuals, to news reporters, or probably more often to 
middle management. So you can see that this will add up to 
self-censorship.
    And more cases have been seen. I mean, especially news 
about the independence or the effect will be cut out even 
though you have done it. Or something that you are exposing. 
The IT maneuver of China will be cut. That has happened.
    Cochair Rubio. But let me just ask. If this extradition 
amendment passes, theoretically a journalist could be 
extradited to the mainland for reporting that the Chinese 
Communist Party doesn't like. Is that an accurate or realistic 
threat?
    Mr. Lee Cheuk Yan. Yes. I think the most important part--
one of the crimes is aiding and abetting. And when you write, 
you are aiding and abetting, inciting. This is a dangerous part 
of the whole amendment--aiding and abetting. If you write 
something in Hong Kong or America, and you come to Hong Kong 
and they charge you with aiding and abetting, they can 
extradite you back to China.
    So CBS's concern about their journalists is a very genuine 
one, of course. But then they have to be more concerned not 
just about journalists inside China, and also about their 
editor in Hong Kong, or you know, anyone that is working for 
CBS or any other media outlet in Hong Kong. So the aiding and 
abetting part will threaten, even more, the whole media 
reporting. And that will make Hong Kong even more in the self-
censorship mode.
    Cochair Rubio. I have one more question.
    Mr. Martin Lee. Okay. Can I answer?
    Cochair Rubio. All right. I'm sorry.
    Mr. Martin Lee. Advertisements are actually pulled from 
free media, to the extent that telephone calls will be made by 
the Chinese apparatchiks in Hong Kong to the advertisers. 
They'll say, ``Do not advertise with this newspaper, you know. 
Your competitors already don't. So you don't have to worry 
about them.'' And even banks would pull those advertisements. 
It is as bad as that.
    Cochair Rubio. Well, my final question in general is, I can 
tell you--writ large on the issue of China, and now, in 
particular, with Hong Kong--there are people and there are 
corporations that are making a lot of money operating there. 
Certainly access to the Chinese marketplace, and maybe 
headquartered. And for many years, that is what Hong Kong was 
known for, a very vibrant free enterprise place. And 
oftentimes, to be frank, the pushback we get--I am just going 
to sort of put it in the simplest terms, and that is, ``Don't 
keep talking about this other stuff because you are messing up 
our chance to make money and be profitable. Focus on the 
business part.''
    Embedded in that argument is the notion that as long as the 
economy is moving forward and the private sector is successful, 
that takes care of these other issues in the long term. I don't 
think they are right. I actually find it offensive, and 
frankly, it points to one of the challenges we have in dealing 
with human rights. We have a corporate class that oftentimes 
wants us to ignore human rights because it messes up a good 
deal for them.
    But if you could--if they were here today, is there any 
way--what's the best way to explain to someone that what they 
are saying is not true, that ultimately these grotesque 
violations of freedom and human rights are not good for 
business. And in fact, the point they make is that as long as 
the economy is growing and doing well, these other things take 
care of themselves. You can have authoritarianism and make 
money.
    How would you answer that if they were here saying that to 
you?
    Mr. Law. Well, I think the problem of this extradition case 
is quite different from the other human rights violations 
because the business sector in Hong Kong has spoken already. 
The American Chamber of Commerce in Hong Kong has issued a 
statement concerning the implementation of the extradition 
amendment, and this is unprecedented. They have never spoken on 
any other issue in terms of Hong Kong's affairs.
    So you see that the local businesses, including some other 
local chambers of commerce, have spoken out, and they are 
worried about it. And they all think that it is detrimental to 
their business environment. But why don't they just stand up 
and tell their representative in the Chamber to vote no. 
Because it is a direct order, a political order from the 
central government. They are ruining Hong Kong's business 
environment in order to get greater control over Hong Kong.
    So I think it is a good point that we have to make. It is 
not only about human rights. It is also about our city's 
future, our vibrant culture of business, and it's about rule of 
law and freedom of information. These are all being threatened 
when the law is passed.
    Mr. Martin Lee. May I add to that? Just imagine if a senior 
executive of say, Google, would be extradited back to China. 
Then he would be subjected to a lot of pressure to disclose 
trade secrets. And once you are there, you are completely in 
their hands.
    Mr. Lee Cheuk Yan. First, I think that, of course, for 
economic interests and business activities, rule of law is very 
important, freedom of information is very important. And if 
Hong Kong loses that, then there will no longer be a fair 
playing field.
    And second, I think with the extradition agreement, the way 
of doing business in China, sometimes this is the experience of 
Hong Kong businessmen also, you know, you may be threatened by 
the law in China. And then you have to do business according to 
the wishes of the business partner in China. And that is not 
fair. You are subject to threat.
    And so I think this extradition agreement should be a wake-
up call for those who say that, you know, Hong Kong continues 
to play the role of economic freedom. And that's it, and that 
is okay. It is no longer okay. We are losing the rule of law. 
And also, when you have a conflict with your business partner 
in China, they can use the extradition law to get you back in 
China and twist your arm. And when your arm is being twisted, 
how can there be a good business deal? And you will sacrifice 
economic interest.
    So the way of doing business, we need the rule of law. And 
I think definitely it's a wake-up call for the business 
community both in Hong Kong and America.
    Ms. Mak. Yes, as a matter of fact, we all know that Hong 
Kong is a safe harbor for a lot of people, including the 
businessmen. We all know that in China we have cases wherein 
financial analysts are being detained or even sentenced, and no 
independent or much less independent report can be made, and 
some companies actually collapse after a few years without 
these kinds of reports.
    And we also know that accountants or lawyers have been 
almost forced to sign some IPO documents so that it can go 
public. But they are the ones who will be liable for 
criminality afterwards. I mean, especially after this bill is 
passed.
    So it is important to keep Hong Kong a safe harbor as we 
are now. I mean, we are free and open. At least they can have a 
certain sense of safety in Hong Kong.
    With this bill I can imagine independent investigations and 
independent financial information will be over with. Then it 
will be the end of a fair game of the business cycle.
    Chair McGovern. Thank you. We have been joined by 
Congressman Ben McAdams of Utah. Thank you for coming, but I am 
going to yield now to our colleague, Congressman Chris Smith of 
New Jersey.
    Representative Smith. Thank you very much, Mr. Chairman. 
And again, thank you to our distinguished witnesses for your 
extraordinary leadership in Hong Kong, for the risks that you 
take. I hope and pray that there's no retaliation for your 
appearance here today. And I think that's--we will follow it 
very closely, but we know that that's an ever-present problem. 
So know that our prayers, and our hopes, and our voices are 
with you.
    You know, Martin Lee, I think in your ominous warning in 
your opening comments that it will never be the same in Hong 
Kong should this extradition treaty go forward--thank you for 
putting a very, very strong--I mean that is a warning that 
needs to be heard around the world, in Washington and 
everywhere else.
    I'm not sure it has been heard the way it ought to be. I'm 
concerned--and you might want to speak to this--the danger of 
some superficial language that might be attached to the--or 
exceptions that businessmen might say, ``Oh, we got our 
exception. We're okay.'' So you might want to speak to that.
    I think everyone has to realize that you know it. You know 
it better than anybody, and members of these commissions know 
it as well. When you're arrested in China, you are 
interrogated, you are tortured, it's endemic in what they do. 
They extract a coerced confession, and very often you are 
called upon to give up other people.
    I would say not as a point of humor, but if Google's top 
CEO were to be sent to mainland China, they've already given 
everything to China in terms of intellectual property. I held 
the hearings back in 2006. We had Google sit in room 2172, 
right nearby. I swore everybody in Yahoo in as witnesses. And 
they were collaborating with the Chinese government like no one 
else could collaborate in terms of surveillance and keeping out 
information, like about Tibet, or the Dalai Lama, or a whole 
lot of other things in their censorship campaign. So I think 
they probably would give the head of Google a medal. But they 
have already taken everything from them intellectual 
propertywise, so he might be free and not get extradited.
    But again, I think there's this underappreciation of what 
happens in mainland China. There is no--despite the efforts by 
the American Bar Association and many others, there's no rule 
of law. They want to get you, they get you. Once you are 
accused, you're convicted, period. And your right of appeal is 
nil and none.
    So I hope everyone understands that this extradition treaty 
is--again, Martin Lee said it so eloquently--it will never be 
the same if this goes forward. But please, first speak to this 
issue of some amendments, or changes, exceptions that could be 
superficial but very dangerous.
    Second, on religion--last December the Washington Post 
carried a piece that I submitted to them called ``The World 
Must Stand Against China's War on Religion.'' And it focused on 
sinicization, a word that ought to become a household word, 
certainly in the House and the Senate.
    Xi Jinping tries to make every faith, every denomination 
from Falun Gong, to Christians, to Uyghurs, comport with 
Communist ideology or else. You comport yourself or you go to 
prison. You allow all the surveillance cameras into your 
church, which is what they're doing. And, of course, there is a 
very, very vital faith community in Hong Kong. If you would 
speak to the dangers it poses to the faith community with this 
extradition move.
    I would ask unanimous consent, Mr. Chairman, that the op-ed 
be included in the record because I do think it highlights that 
no one's excluded. All faiths, even the Patriotic Church and 
the Three-Self Church fall under this new grotesque effort by 
Xi on sinicization.
    Chair McGovern. Without objection.
    [The op-ed appears in the Appendix.]
    Representative Smith. I thank you. If you could speak to 
that, I'd appreciate it. Third, on the reporters, and Ms. Mak, 
thank you for your comments. I was wondering, and just to 
follow up on Senator Rubio, self-censorship--you pointed to 
that. But I am just wondering, when the Hong Kong Journalists 
Association does their survey, is it done anonymously? How 
sacrosanct--if I were called by them, and I were in Hong Kong, 
I am not sure I would give them an interview even though they 
might be great people. How do they guard their information? Is 
it done anonymously? Are you given a number?
    Ms. Mak. Yes. You are right. It is done anonymously.
    Representative Smith. It is done--okay. Thank you for that 
clarification.
    You mentioned buyouts, and Martin Lee talked about how on 
the ads, you know, if they just get the corporations not to buy 
an ad, maybe elaborate on that. But the buyouts--how aggressive 
is that?
    Fourth, if I could, the U.K., Senator Rubio had Christopher 
Patten testify in the past because he was governor, of course, 
there. In 1997, he saw the transfer. All of us were worried 
then. I met with him in Hong Kong when I was there on occasion. 
He was very strong in his statement.
    What is the U.K. doing? What's the EU doing? Because, 
again, they are financial partners with Hong Kong like few 
others. Is the UN--are they playing any role in all of this as 
well? If you could speak to those issues, I would appreciate 
it.
    Mr. Martin Lee. In fact the print media in Hong Kong, there 
is really only one Chinese newspaper which dares to criticize 
Beijing, and that's the Apple Daily, and it is targeted, of 
course. And so it suffers most. It used to be that thick 
[indicating] the newspaper--one and a half inches. Now, it is 
about that thick [indicating]--because the advertisements are 
gone. They have pulled out.
    So it's really that serious. And that is the only one which 
dares to criticize Beijing. All the rest of the print media 
already decided not to do that anymore. The formerly 
independent ones, they grow in size [indicating]. The formerly 
independent, after a change of ownership, then of course they--
--
    Representative Smith. You know, as you answer that, on the 
internet too? Have they taken over the internet like they have 
on the mainland?
    Ms. Mak. The internet environment there is not good enough 
to support healthy media outlets.
    Mr. Lee was just talking about the Apple Daily losing 
advertising revenue. Actually, I think five to six years ago 
the owner, Jimmy Lai, said that they lost 2 billion Hong Kong 
dollars in advertisements in one year.
    And more and more big international companies with an eye 
on the China market--they buy advertisements, but under 
pressure from the Chinese government officials, sometimes they 
withdraw their advertisements suddenly. That tells you the 
fact.
    For other media who criticize this withdrawal, they also 
face advertisement withdrawals. So you can see the situation is 
really bad.
    You were talking about buyouts. Yes, according to the 
HKJA's survey, around 30 percent of the mainstream media has 
been bought out by Chinese enterprises or is directly funded by 
the Chinese government. And for the others, they are facing, 
you know, advertisement threats. So that's why we say, more and 
more, self-censorship will arise because you face commercial 
pressure. And even the co-opting of the media workers as well 
as their owners, because some owners of media outlets have been 
rewarded for opting in to the establishment of the Chinese 
government, as well as given a medal by the Hong Kong 
government. So the situation is getting worse.
     Mr. Lee Cheuk Yan. And I think one more thing is that 85 
percent of the bookstores in Hong Kong are owned by China, 
Chinese enterprises. And imagine after the abduction of the 
booksellers in Hong Kong, who dares to open a bookstore?
    And then those books that are seen to be unwelcome by 
China, of course, all those bookstores--85 percent will not put 
them on the shelf. The other 15 percent will also be afraid.
    So the whole publishing business is now under threat. No 
one dares to publish anything that offends Xi Jinping. And so 
where is our freedom of the press and freedom of information 
now in Hong Kong?
    Ms. Mak. As a matter of fact, not just the publishers. I 
mean selling books has been controlled by Chinese enterprises. 
Actually, the printing house--well, basically they should not 
be afraid of printing things--they are just true, right? But as 
a matter of fact, more and more publishing houses decline to 
publish articles for pro-democracy publishers. And some have 
taken the books to Taiwan to print.
    Representative Smith. Would any of you like to speak to the 
ugliness of sinicization coming to Hong Kong, the war on 
religion by Xi Jinping?
    Mr. Martin Lee. Yes. We still have religious freedom. No 
doubt about it in Hong Kong. But we are concerned because 
things are happening in mainland China. Under the Basic Law our 
religious freedom is certainly guaranteed. But we have seen so 
many encroachments on other promises which are also contained 
in the Basic Law that it is certainly reasonable for the 
religious people in Hong Kong to be fearful. What happens in 
China? When is it coming to Hong Kong? There is always a 
question mark in our minds.
    Representative Smith. U.K., UN, EU?
    Mr. Martin Lee. Unfortunately, the U.K. government is too 
much concerned about China trade. And for years, they actually 
kept quiet. When the central government published a white paper 
in June 2014 claiming that the central government has 
comprehensive jurisdiction over Hong Kong, they didn't say 
anything because the Chinese premier just then went to London 
and signed many, many contracts, something like 30 billion 
dollars'--U.S. dollars' worth of contracts.
    And that, of course, is terrible. Beijing has rewritten the 
Sino-British Joint Declaration. Instead of a high degree of 
autonomy promised to us and already given to us, they now claim 
to have comprehensive jurisdiction over Hong Kong.
    And hence all these things, including this extradition 
thing, are a clear sign that they really want to implement the 
new policy on Hong Kong so that they can control Hong Kong.
    Now at the moment, of course, Hong Kong is still not just 
another Chinese city. But how long can that last? And so far, 
we have been fighting very hard. We resist every encroachment 
on any of our freedoms.
    And so far, we have enjoyed, certainly, support from your 
Congress. That's why we are here. We are very happy to be here. 
And we will certainly continue with our fight in Hong Kong 
after we go home. The Hong Kong people will still take to the 
streets, I am sure, to defend freedom. But with your support, 
hopefully, we can turn the tide.
    Mr. Lee Cheuk Yan. And also Anson Chan was in Germany. And 
after speaking to the German--I think it was the Speaker 
there--there was a report by the press that Germany would 
reconsider the extradition agreement with Hong Kong. Of course 
countries like the U.K., Germany, and many European countries, 
American, Canadian governments all had extradition agreements 
with Hong Kong because we trust each other, the rule of law.
    But now with the extradition agreement, the question is, 
can the Hong Kong rule of law still be trusted by the 
international community? And, therefore, there are reviews of 
the extradition agreement. And I don't know whether that is 
something that will be taken up by the U.S. Government on this 
extradition agreement.
    Representative Smith. Thank you.
    Chair McGovern. Mr. McAdams.
    Mr.McAdams. Thank you, Mr. Chair. And thank you for the 
testimony. Apologies for being here a little bit late. I am not 
entirely sure what was covered but clearly some very 
interesting things.
    I wanted to note maybe first a couple of things. Earlier 
this month we celebrated World Press Freedom Day. In the last 
10 years Hong Kong's ranking in the World Press Freedom Index 
has fallen 25 places to 73rd out of 180 territories.
    In your view, how has press freedom in Hong Kong changed 
over the last 20 years? And describe any interference by the 
Chinese government with press freedom in Hong Kong and some of 
the challenges that journalists are facing. Ms. Mak.
    Ms. Mak. Yes, as you said, the ranking of Hong Kong in 
press freedom has dropped dramatically. Especially, as I said, 
during the regime of Xi Jinping, because he would like to 
have--you know he has a more high-handed and more controlling 
manner.
    And the buyouts of the Hong Kong media by China 
entrepreneurs actually started from Xi Jinping's era. And 
whenever we fought for a way to deal with the control, the 
Chinese government would have more resources on it.
    For example, internet--we say the internet is the self-
censoring media. Well, it's a new battlefield to compensate for 
the self-censorship of the mainstream media. And we did have 
several set up, around four to five, with the Citizen News 
which was set up by me and some other colleagues. It is 
independent online media.
    But at the same time, during the same timeframe, around 10 
online media were set up by--at least supported by Chinese 
resources, as far as I know. And they have more people, more 
money, while the independents online have to get public funding 
and have to get in line--quite difficult. But we still fight 
on.
    And so you can see lots of pressure being put on press 
freedom because according to the Chinese regime, control of the 
media is very important. There are two tools. One is the 
weapon, the other one is the pen--they have to control the 
media. And that is what they are doing.
    But I mean the fight is going on even though we face lots 
of pressure . . . but the readers are very clever. According to 
some international organizations who monitor the readership, 
the page view of media, we found that more than half the news 
pages are for international media and the independent media 
outlets in Hong Kong, and the pro-Beijing mouthpieces only get 
a small share.
    So I must stress that we face pressure, difficulties lie 
ahead, but we have the support of the people. And we hope very 
much that more support from the international community, as 
well as the locals in Hong Kong, will keep Hong Kong press 
freedom alive so that our vibrant media in Hong Kong will keep 
Hong Kong a free and open space--good for Hong Kong and good 
for the world.
    Mr. McAdams. I guess my next question would be for any of 
the panelists who feel inclined to weigh in, but--maybe a 
little bit open-ended. What is the one thing that you would 
like us to take back to our colleagues in the United States 
Congress? And what can Congress do to help with the situation, 
whether it's extradition, freedom of the press, other topics?
    Mr. Martin Lee. We would suggest, if you think it possible 
to have a strong statement on this issue, and I would----
    Mr. McAdams. Is that extradition specifically, or----
    Mr. Martin Lee. Yes, on the extradition thing. And I would 
suggest that the two cochairmen perhaps can actually have a 
word with your Consul General in Hong Kong, Kurt Tong, so that 
he could be directed to speak to our chief executive, Ms. 
Carrie Lam, on this issue. And that is more immediate.
    And Hong Kong is the key to China, and we must be able to 
keep what we still have. And we need your support, and I am 
glad that we always have your bipartisan support--and may that 
continue, because we share the same core values: freedom of 
religion, freedom of the press, the rule of law. And these are 
the ideals which we would like China finally to have.
    But if we cannot even keep it in Hong Kong, then the Great 
China Dream can never be realized. And the Great China Dream 
for me is that everybody in China would have their human rights 
respected by the leaders and under the protection of law.
    Mr. Law. Regarding this suggestion, I think this issue is 
in a very short timeframe. The government, it's possible that 
they may push it through in the next week, and maybe before 
July. So I think we need an urgent reply, and I think a 
delegation from the Congress is needed because we need that 
presence, and we need the support from the international 
community.
    And directly talk to Carrie Lam to tell her that it is 
harmful to local business, to the international and business 
hub reputation of Hong Kong, and also to U.S. interests. So I 
think it has to be clearly spoken out, written, and have a 
direct conversation with the Hong Kong government. I think it 
is very important to do it very promptly and loudly.
    Ms. Mak. I think it is important for the Congress and for 
the Parliament to take the issue to Hong Kong in an urgent 
manner, like making phone calls, a strong statement which is 
important to tell the world that China must keep and honor 
their promise. You know, it is a breaking of ``one country, two 
systems'' and the Joint Declaration. If China breaks their 
promises so easily, how can the world, especially the business 
world, believe in China who signed lots of contracts, and 
especially with their Belt and Road, a list of lots of 
contracts and agreements. What is the Chinese government 
telling the world if they break their promise in Hong Kong?
    And I would like the gentlemen here to bring this issue up 
to the world and tell them, ``Beware.'' Whether the Chinese 
government will keep their promises is very important in doing 
business with China.
    Mr. Martin Lee. Can I just end by saying that all this is 
doable. This bill is terrible, and it can be stopped.
    Mr. McAdams. Thank you.
    Chair McGovern. Thank you very much. I just had a few 
questions and I know Senator Rubio has some additional 
questions.
    I know our Consulate General has issued a strong statement 
against the extradition agreement. Was it sufficiently strong 
in your opinion? I mean, do you think it was clear enough?
    Mr. Lee Cheuk Yan. It can be stronger always, and also, I 
think it would be good not just from the Consul General. It 
would be good for the White House, for all the CECC, and maybe 
a co-signature from all Senators and Congressmen to co-sign a 
letter to make it very clear--weigh in against the bill. So a 
higher level of intervention would be good from the White House 
and also from the Congress.
    Chair McGovern. Well, I think we on this Commission can 
work together to try to put together something relatively 
quickly, because as Mr. Lee pointed out, something could be 
imminent, right? So we're not talking about July. It could be 
in a couple of weeks even that we see something like that. I 
think we can work on something that's a bipartisan statement 
that is even stronger than our Consul General's statement to 
make it clear that we think this is a really awful idea.
    But it seems to me that the constituency here is key--and 
Senator Rubio kind of alluded to it in his opening remarks--is 
the business community, right? So we appreciate that the 
American Chamber of Commerce issued a statement. But it seems 
to me that the business community, the American business 
community and even the Chinese business community needs to do 
more. I mean, the Chinese business community can lose an awful 
lot if this goes through and has a chilling impact on Hong 
Kong.
    So the question is, how do we persuade, how do we better 
persuade the American business community to take an even 
stronger stand? And how do we persuade the Chinese business 
community that it is in their interest not to see this thing go 
through?
    Mr. Martin Lee. I think this is the most difficult question 
because when these people care about their own good relations 
with China so that they can earn more money and put it into 
their own pockets, they don't want to stick their necks out. As 
I said earlier, they want us to do the fighting for them. We 
don't mind doing that, but I always think that those who join 
themselves into chambers of commerce, they--really the members 
clearly rely on their spokespeople, the chairmen of these 
chambers, to speak up for them. Yet even that is difficult.
    I mean for years, we have not given up and will continue to 
see them, even during our visit. But it's very difficult to get 
them to speak up. And I'm sure you encounter the same problem.
    Chair McGovern. I think Senator Rubio was right. For a lot 
of businesses it's about profits and making money and not to 
rock the boat, if you will.
    Mr. Martin Lee. Exactly.
    Chair McGovern. But on the other hand, it seems to me that 
based on all that you have said here that if this goes forward, 
it could have a chilling impact in terms of whether or not Hong 
Kong is a friendly place to do business.
    Mr. Martin Lee. Indeed.
    Chair McGovern. And so lots of people who are concerned 
about money and making money could lose money.
    Mr. Martin Lee. Indeed.
    Mr. Law. Yes, that's true. And I think the business 
community is actually very clever. They are good at protecting 
themselves.
    Chair McGovern. Right.
    Mr. Law. And they clearly understand the risk and the 
potential danger posed to the business environment of Hong Kong 
when this bill is passed. But I think what they need is an 
excuse or some other external sources to let them leverage with 
the government. Because if there is no international worry, if 
there is no international pressure, then it may sound like this 
leverage comes from themselves.
    So they are very afraid of sticking their heads out and 
saying that it is from their own concern. If we could have some 
more pressure, some statement globally, that they could 
utilize, and they could talk with the government saying that 
this is not from them but from the global community. If it is 
harmful to their own interests and the interests of Hong Kong, 
then they may have more leverage.
    So, I mean, we are talking about a very strategic way of 
helping them, basically--even though they have a lot of other 
issues and give inconsistent responses.
    Chair McGovern. I think it is a fair statement to say that 
whether you are a U.S. business interest or a Chinese business 
interest, you will lose money if this extradition agreement 
were to move forward. This would be bad for business on the 
American side, the international side, and the Chinese side.
    Mr. Law. Yes. That is true.
    Mr. Martin Lee. Not only losing money, losing one's 
freedom.
    Chair McGovern. Right, and losing one's freedom I think is 
very, very important. But I think we are trying to move people 
who are consumed with profits that there's a cost here, and 
that it is urgent, and that we are at a crossroads.
    I have a couple other questions, but I know Senator Rubio 
has to leave, so I want to yield to him.
    Cochair Rubio. And I just want to take off from that point 
and say, yes, in the long term, absolutely right. I mean it is 
a tough thing to do business when people are afraid to go there 
because they might be extradited for aiding and abetting, so 
absolutely.
    But beginning around the 1970s in this country we grew more 
and more obsessed at the corporate level, particularly the 
large multinational level, with immediate maximized returns to 
shareholders. So these shareholders are pushing you every 
single day to return profits to them. And losing access to a 
market is a very difficult thing to explain, particularly to 
large shareholders who are banging on the door every day: Why 
aren't we making money?
    Ten years from now maybe the company is out of business. 
Look at the technology transfers. Some of these companies are 
committing suicide by going over there and turning it over, but 
the person running it doesn't care. They'll be gone in four 
years. And their board is very happy.
    So that's what we are running into here; you've got 
companies who are afraid that they're going to not just lose 
access in Hong Kong but lose access in the mainland if they 
speak out too loudly about things.
    But that's their issue. We are policy makers. We are 
interested in what is in the national interest of the United 
States. And it is not in the interest of the United States, or 
for that matter the free world, to have this steady erosion of 
rights.
    And by the way, this is the template--what we see now in 
Hong Kong is the template the Chinese will eventually use in 
Taiwan. At some point they'll go to the world and say we want 
to have the same thing. Don't worry, we'll let you operate 
independently. And they will break that deal as well.
    The Chinese Communist Party doesn't keep any deals. It's 
all about getting the deal in place, and then later on eroding 
it, each time changing the facts on the ground slowly but 
steadily, at an irreversible pace, which leads me to a question 
I wanted to ask.
    I think I will just focus this one on you, Mr. Lee. What 
are some of the fundamental freedoms that we would have found 
in Hong Kong, say, a decade ago, that are now gone or being 
rapidly eroded? Some that people would look at and say, I 
didn't realize that's the way it used to be. Look how it is 
now.
    Mr. Martin Lee. With the freedom of the press you have 
heard enough, I think, maybe never enough. But the rule of law, 
I have said, that is being eroded. And of course, Xi Jinping 
when he was only the vice president visited Hong Kong about ten 
years ago and spoke in public that our judges should cooperate 
with the Hong Kong government.
    So when you have judges cooperating with the government--I 
don't think he understands what the rule of law really is. That 
is trouble. So we are concerned about these constant erosions 
of the rule of law and our freedoms.
    Cochair Rubio. I do think they have a fundamental 
interpretation of rule of law that's different than yours or 
mine. Our interpretation of rule of law is designed to provide 
justice, fairness, and equity. His interpretation of rule of 
law is it is designed to maintain control of society, the 
economy in a country. That's the difference.
    The rule of law for them is a tool. Rule of law means 
having the power to stay in power and to enforce whatever it is 
the government wants. For you and me rule of law means we have 
a contract. Someone needs to decide the fair outcome of it if 
there is a dispute, or if someone is charged with a crime--did 
they do it or not?
    Mr. Martin Lee. Indeed.
    Cochair Rubio. That is a very different interpretation. 
They understand rule of law. It is just not your or my 
understanding of it.
    Mr. Martin Lee. I think theirs is only the rule by law--the 
rule by law.
    Cochair Rubio. That's the exact way to put it.
    Mr. Martin Lee. But I would rather that they put me in 
prison without a trial, rather than have me tried according to 
their law which doesn't give me any freedom at all.
    So as to when a statement made by your government, perhaps, 
is strong enough, I would say it depends on the consequence. 
When the result of a statement leads to the withdrawal of the 
bill, then I know it's strong enough.
    Cochair Rubio. Could I just make one more point? Because a 
lot of times people will say, well, you have these hearings, 
and you make these statements, and you offer and pass these 
laws. But in the end, if they want to do this, they are going 
to do it anyway.
    It is fair to say--you have all observed the Chinese 
Communist Party. You have seen its operations. They do care. 
They do not like this hearing. I assure you we will get the 
obligatory letter criticizing us. Or we will get the printup in 
their influenced media or the like. They do not like this.
    They don't like public attention to the religious 
persecution that occurs in the country, the lack of freedom, 
the erosion of previously . . . they don't like the fact that 
this hearing is taking place today. And it is--in fact, one of 
the few things they have ever responded to is international 
criticism and international attention being paid to their 
abuses because they think it harms them in terms of the world's 
view and their ability to operate in other parts of the world. 
Is that not accurate?
    Mr. Lee Cheuk Yan. Yes, I think it's very accurate. They 
listen to power, actually. They don't listen to reason. We are 
talking reason, but they don't listen. When 130,000 people are 
on the street, they say numbers don't count because they only 
listen to Xi Jinping and the government of Hong Kong.
    But I want to go back to your question about the freedom 
part. Of course you have already mentioned that the freedom to 
protest has already been eroded because of the political 
prisoners. But I want to point out--one point is very saddening 
for us in Hong Kong. They are trying to suppress the whole 
younger generation. They are trying to get the whole younger 
generation--like Nathan Law--he was disqualified. But the 
danger is not just being disqualified as a legislator, many of 
them are disqualified as candidates. So they cannot run for 
office. And the whole younger generation is denied their 
political participation rights--because they want to destroy 
all hope for the future and to put despair in the people of 
Hong Kong. Fear and despair is how they try to control Hong 
Kong. And this is what we are trying to fight back with hope 
and continuous mobilization protests to show the world that we 
still care about Hong Kong and we want to stick our heads out. 
And even though our own freedom is at stake, we will continue 
to fight.
    And I think this is the crash of two world values. And we 
are in the forefront of the battleground. And we need support.
    Mr. Martin Lee. If I may, I entirely agree, Mr. Cochairman, 
with your observation. China does care about this hearing. It 
does care about statements from this body. They pretend not to, 
but they certainly hate us much more for coming before you than 
ever before. And that is why it works. That is why a strong 
public statement or a visit by your delegation--one from each 
party will do, but it must be----
    Cochair Rubio. Just blame it on McGovern and Smith. Tell 
them----
    [Laughter.]
    Mr. Martin Lee. And China always says that she honors 
international agreements. Hong Kong should be the litmus test. 
This is an international agreement over Hong Kong.
    Chair McGovern. Mr. Smith has an additional question.
    Representative Smith. Just really quick, if I could.
    Again, on the religious freedom issue, as far back as 2005, 
Cardinal Zen had raised questions about the education law and 
the ability of the Catholic Church to run schools. I wonder if 
you could update us on where that is, and are there any faith-
based-entity schools? What is their potential fate now, 
especially with Xi Jinping's sinicization?
    And secondly, right now the big focus with the White House 
is on trade talks with China. Many of us have argued, I've 
argued it repeatedly, that we need to focus on human rights, 
and we need to focus on Hong Kong. But I am concerned that all 
of the talk about trade crowds out the necessary dialogue and 
concern being expressed by Secretary Pompeo and the rest of our 
White House efforts to raise these issues in a--it's great to 
have a good statement. I mean, this Commission did a good 
statement. But it seems to me if it comes from the very top and 
from the Secretary of State in a very clear way, it could have 
a profound impact. But my question is, do you think the trade 
talks are crowding out that necessary--and this is like 
slipping in all of this extradition initiative under the cover 
of the trade talks because that gets all the attention?
    Mr. Law. Yes, I think--well, for now the trade talks, trade 
negotiations between the U.S. and China are not just about 
trade. It's about a battle of two values. It is about a battle 
of two beliefs. And it's about how the world order should be 
viewed.
    So I think it is very important for us to offer our hand to 
Hong Kong, a place that is an ally of the free world, and say 
that the battle between these two values, we definitely support 
the ones--we support democratic values----
    Representative Smith. But what I am saying, in terms of 
crowding out, the diplomatic dialogue only has so many avenues 
of contact. And if everything is trade, trade, trade, and human 
rights falls to the backseat and Hong Kong, including human 
rights in Hong Kong, falls to the backseat, are you concerned 
about that? Because I am----
    Mr. Lee Cheuk Yan. No, as the unions say, as we always say, 
trade and workers' rights and human rights should be linked. 
Trade is about people. And people's rights are at stake.
    Representative Smith. I agree 1,000 percent. But what I am 
concerned about--now there isn't that much time. The issue of 
the extradition treaty could get obscured by the focus on trade 
to the exclusion of all else. That's what I am concerned about.
    Mr. Lee Cheuk Yan. Yes, and I hope this is not the case, 
then. The extradition agreement should be part of the 
discussion. When business interests or businesses' personal 
safety are at stake, how can you trade when you are threatened? 
And I think that will be--we are hopeful they will----
    Representative Smith. Have you seen evidence that--in the 
trade talks--the issue of the extradition treaty has been----
    Mr. Lee Cheuk Yan. No, we did not see anything on that. And 
we do not know where the extradition agreement, you know, sort 
of--as you said--it was crowded out.
    Representative Smith. Mr. Lee, are we good on the schools?
    Mr. Martin Lee. Yes, on the education ordinance there were 
the amendments, and I was final counsel for the Catholic Church 
before the court of final appeal. Unfortunately, I didn't win 
the case for them.
    It requires a lot of extra work on the part of the churches 
to get the right people onto the committees. Every school has a 
committee. And that is why it is more difficult to get good 
people onto these committees. But actually it's working, but 
with difficulty.
    The trade talks--of course, at the end of the day there 
will be a deal of some kind. But what good is a deal if it is 
not honored? And the Hong Kong agreement is not honored. So one 
has to keep that in mind.
    Representative Smith. Good point. Thank you.
    Chair McGovern. Thank you very much. I have a few more 
questions, but I am going to--don't leave until we finish. I 
want to ask those questions.
    But we are joined by Senator Daines from Montana who is a 
valued member of this Commission, and I want to yield to him 
for any remarks or questions he has.
    Senator Daines. Chairman McGovern, thank you, much 
appreciated. And I want to thank you for coming before this 
Commission, providing your perspective and your expertise on a 
very important topic.
    Some of you might know I spent over five years living in 
Guangzhou. In fact, during that time, we had two children born 
in Hong Kong. So we went over with two children and we came 
back with four.
    [Laughter.]
    Mr. Martin Lee. Come back to Hong Kong again and have more.
    Senator Daines. Yes, well exactly. Well, we have great 
memories of our time there as expats. I was working for Procter 
& Gamble then, as we were working to launch businesses to take 
American brands and develop them and sell them across China, 
Hong Kong, and frankly across all of Asia.
    So I have had a chance to live it, to breathe it, 
experience it in a very profound way. It was formative for our 
family and for my years in business before I got into public 
service. I've witnessed both very positive developments over 
the years, as well as very concerning developments as somebody 
who is actively engaged in these issues in China and Hong Kong. 
When we were there in the early 90s, and in fact, I was in Hong 
Kong when they had the handover on June 30, 1997 when I saw 
Chris Patten and Prince Charles hand the keys over.
    And since then I have led codels to China and Hong Kong. 
And I think it's very important. I have said the only thing 
more dangerous than a U.S. Senator who's never been to China is 
one who was there 15 years ago. And I've changed my thinking 
there and said one who was there five years ago because of the 
rate of change that's going on--again, both positive and 
negative.
    When we were first launching business there, China was a 
$500 billion economy. Today it is somewhere north of probably 
$13 trillion.
    I bring Senators to the region. We spend time in Hong Kong. 
We spend time in China. And from these visits and the feedback 
I receive from officials in Hong Kong, it's apparent that human 
rights in Hong Kong are eroding and the influence of mainland 
China is continuing to grow. This is an important issue that we 
need to address. I want to thank this Commission for being 
active on these topics.
    Mr. Cheuk Yan Lee, I have a question for you. Before the 
1997 handover you supported defending Hong Kong's autonomy 
under ``one country, two systems.'' In light of the recent 
steps taken by Hong Kong authorities to hinder political 
participation and infringe on human rights, do you believe that 
model is still sustainable?
    Mr. Lee Cheuk Yan. It was definitely under threat and 
eroding. And before 1997, we believed that maybe after 10 years 
of the handover we would have universal suffrage, because that 
was the promise. And we tried to fight for that.
    But the promise led to every cycle of political reform 
debate. It was a disappointment. It was delayed and delayed, 
and then with the Umbrella Movement, when they used the 
National People's Congress decision on August 31st, 2014 to 
crush or to destroy all of our hope for true universal suffrage 
on that round, and then the Umbrella Movement erupted to 
continue to fight.
    So we have been fighting for so many years. And it is a 
disappointment. And I have said it's also very much a 
suppression of the aspirations of the younger generations that 
is worrying me, because we have to pass the torch on, of 
course, to fight on. And they are trying to do that by 
disqualifying legislators and candidates from the younger 
generation.
    And this is very, very much part of the scheme, I would 
say, of the Communist Party regime--to suppress all hope for 
democracy in Hong Kong, erode our freedom, and now further 
frightening us with the extradition agreement. And then tell 
Hong Kong people that they are no longer Hong Kong. They will 
be the Greater Bay Area. And you will be part of the nice city 
called the Greater Bay Area.
    And where is Hong Kong? Submerged in what they call the 
Greater Bay Area business model? And then everything will be 
under control. So the control part from China will be there and 
we are only allowed to do some business under the control of 
the Communist Party.
    Senator Daines. It really is remarkable how quickly time 
passes. I remember being there on June 30, 1997 and watching 
the Union Jack come down for the last time. And here we are 
nearly at the halfway mark of the 50-year SAR. As you look now, 
as we are virtually reaching halftime now in that 50-year 
period, where do you see human rights in Hong Kong, looking at 
the next 20-plus years?
    Mr. Lee Cheuk Yan. I think firstly, you know, of course it 
is under threat and deterioration. And looking forward to the 
future, it very much depends on the development of China . . . 
inside China.
    So our belief is that the people-to-people connection is 
very important. We are not fighting alone in Hong Kong. People 
in China are fighting. They are fighting for their rights. 
Uyghurs are fighting for their right to exist. And then China 
human rights defenders are fighting for the rule of law inside 
China. And there are workers' rights activists also fighting 
for workers' rights.
    So we believe that Hong Kong as a base to support that and 
our own fight together is the same fight. And we want to change 
China, as I have said, before China tries to change us. And we 
are losing time. We are, as you said, at halftime now. And we 
are under threat.
    So it may go down the drain, but we will try to reverse the 
drain by continuing our struggle for true democracy in Hong 
Kong, and also to support our Chinese brothers and sisters 
inside of China to fight for their rights. So we hope that by 
this combination of forces that we can resist the Communist 
Party's further erosion in our rule of law.
    Senator Daines. Thank you. I am going to go to Mr. Martin 
Lee.
    Mr. Martin Lee. May I answer that question? Because you 
asked whether ``one country, two systems'' is still 
sustainable.
    Senator Daines. Sure. Yes.
    Mr. Martin Lee. Now, right from the start, when Deng 
Xiaoping announced it before 1984, I already said it is 
possible for it to work, but it will be very difficult. And 
there are two conditions; otherwise, it is not workable.
    The first is that China must learn to respect Hong Kong's 
system. And I use this example of a game which we all played 
when we were young, the seesaw game. Now China is the much 
bigger system. It is like a grown man sitting at one end. And 
the little boy would be going up unless the grown man moves 
towards the center until an equilibrium is struck. Then you've 
got a game.
    So the mainland authorities must do everything possible to 
help Hong Kong maintain our different system. But the Hong Kong 
government must stay at the end to exert maximum weight to our 
system to protect it.
    The other one is, there must be democracy so that those in 
power in Hong Kong would be answerable to the people through 
the ballot box. And if they are not seen to be standing on the 
outside whenever there is any conflict of interest arising, 
they would not be re-elected.
    So that these two conditions--now democracy?--nowhere in 
sight. Now Carrie Lam, our chief executive, said last year, it 
will be unrealistic to now push for democracy. She said it is 
like knocking your head against a wall. But that's her job to 
do that.
    And we don't have this equilibrium either, because the 
central government keeps on interfering in Hong Kong's internal 
affairs. But what other option is there? That is a problem.
    So we must insist, we must insist that China, on these 
obligations and the promises made in the Sino-British 
Declaration and now embodied in the Basic Law, we must push 
them back to Deng Xiaoping's blueprint for Hong Kong.
    Senator Daines. Thank you for those comments. And I want to 
shift direction here and talk about some of the concerns raised 
related to a recently proposed extradition bill.
    I can tell you I was extremely disturbed to read about a 
murder in 2018, where a Hong Kong resident was accused of 
murdering his girlfriend in Taiwan, fled back to Hong Kong to 
avoid persecution and extradition. Why could the Hong Kong 
government not use the existing legal authorities that permit 
case-by-case extraditions instead of creating an overarching 
extradition bill that could jeopardize human rights? Mr. Martin 
Lee.
    Mr. Martin Lee. At the moment, there is no such law in Hong 
Kong even on a case-by-case basis unless we negotiate with 
Taiwan. So we must change the law. But the bar association in 
Hong Kong actually said there is another easy way and that is 
to amend our existing law to allow Hong Kong courts to assume 
extraterritorial jurisdiction over the serious offenses 
committed by Hong Kong residents outside Hong Kong. And that 
would be a very simple amendment to enable that to be done.
    Or we can actually sit down with Taiwan and enter into a 
case-by-case arrangement. But at the moment, the Hong Kong 
government uses this as a pretext. You are quite right. It is a 
pretext. And they say because of this, we must hurriedly change 
the entire system, the entire extradition system of law in Hong 
Kong to enable even Hong Kong people to be sent back to China 
for trial.
    Senator Daines. So what was Beijing's response to this 
bill?
    Mr. Martin Lee. At the moment, there is not much evidence 
that Beijing was behind it. But I cannot believe that such an 
important bill would not have the express blessing of Beijing 
on this initiative.
    Senator Daines. So the follow-up to--there is concern that 
this new extradition bill would violate several key provisions 
in the U.S.-Hong Kong Policy Act, including the continuation of 
the U.S.-Hong Kong Extradition Treaty and the encouragement of 
U.S. businesses to operate in Hong Kong.
    How would you respond to U.S. legislators who are concerned 
about this law and how it might impact the U.S.-Hong Kong 
Extradition Treaty?
    Mr. Martin Lee. I think businesspeople working and living 
in Hong Kong--in fact, even priests there, ministers and 
teachers from this country work in Hong Kong to help our 
students and so on. Now all these people would be at risk 
because all it takes is an affidavit from someone in China to 
say that whoever this person is that they want to punish has 
committed a criminal offense many years ago in Shanghai or 
wherever. And then that person can be transferred if the law is 
changed.
    And once you're in China, you are liable to make 
confessions before a television camera. So no American resident 
in Hong Kong is safe once this bill is passed.
    Senator Daines. Thank you. Chairman McGovern, you have been 
more than gracious on time. Thank you.
    Chair McGovern. Thank you for being here.
    Senator Daines. I very much appreciate it. You bet. Thank 
you.
    Chair McGovern. Thank you.
    Ms. Mak. Mr. Daines, I would like to supplement a bit when 
you are asking about the Chinese government attitude toward the 
bill.
    Just a few days ago, the vice chairman of the Hong Kong 
Basic Law Committee, which is a subsidiary of the National 
People's Congress in China, said that he supports the bill. And 
he said the bill should be done earlier.
    And more will come so that original legal structure can be 
set out. So you can see that the introduction of the amendment 
to change the extradition law now is an opening up to the 
change of the Hong Kong legal system so as to adopt or to 
incorporate Hong Kong into the Greater Bay Area.
    Senator Daines. Thank you. Thanks for your comments. I have 
many fond memories of riding the Star Ferry back and forth. My 
wife and I enjoyed our years there. I always enjoyed visiting 
Hong Kong. Thank you.
    Chair McGovern. Thank you, Senator.
    Mr. Martin Lee. Join the delegation coming to Hong Kong.
    Chair McGovern. We are. We have a tour guide now.
    [Laughter.]
    Chair McGovern. So to be honest with you, I think the 
Chinese government should be concerned about this hearing, and 
not only by the testimony that's being given here today, but 
again, by the group that assembled here to listen to your 
testimony and ask questions. I mean, this is a very diverse 
political array of Members of Congress who probably cannot come 
to agreement on what to have for lunch; right? But we are in 
agreement that it is important to uphold a high standard of 
human rights in Hong Kong.
    And with regard to the extradition treaty, from a human 
rights perspective, this is a problem. So if you care about 
human rights, we all ought to be advocating against it. If all 
you care about is profits, you ought to be against this because 
it creates an atmosphere in Hong Kong, quite frankly, that will 
be hostile to business, and not just U.S. and international 
businesses, but if you are a Chinese business leader as well, 
you should not want this.
    So for a whole range of reasons this is not only a bad 
idea, but a horrible idea. Senator Rubio and I issued a 
statement as cochairs of this Commission against this a few 
weeks ago. We will regroup and figure out how we can get 
everybody to issue an even stronger statement as a reminder to 
the powers that be that this is a terrible, terrible idea.
    We will work also to persuade the administration that these 
issues must be brought up in the course of these trade 
negotiations. Look, I will be honest with you. I am 
disappointed that human rights--and I will be fair to be 
bipartisan, not just in this administration but in other 
administrations--human rights when it comes to trade deals 
tends to be sidelined. And I think that is really unfortunate, 
because if you ignore human rights, you encourage turmoil and 
more instability in places that you're dealing with, and it 
becomes, again, a hostile climate for business and for the kind 
of freedoms that are important to be able to pursue business.
    So we need to do better. Our government, the United States 
Government, if we stand for anything, we need to stand out loud 
and foursquare for human rights. We need to be more vocal on 
this. We need to make sure that our--that it is crystal clear 
that this is a big deal. And we also need to be thinking 
imaginatively and out of the box on ways that we can help move 
that message forward.
    You know China's human rights record is getting worse. I 
mean we know about what is happening to the Uyghurs. We know 
about what is happening to the Tibetans. And we have raised 
these issues over and over and over . . . and yet the situation 
deteriorates.
    So we, thinking imaginatively, passed the Reciprocal Access 
to Tibet Act so that there's a consequence for those who are 
actually designing and implementing these oppressive policies 
against Tibetans. I passed the Magnitsky Act with regard to 
human rights abusers and corrupt officials in Russia. Working 
with Congressman Chris Smith, we now have the Global Magnitsky 
Act.
    So there is a tool there. And there needs to be a 
consequence that is real and that is constructive in terms of 
making it clear that this stuff is important to us. So we have 
heard you loud and clear about the need to ramp up our voices 
on this extradition law, and we need to do it now.
    But just a couple of other questions if I can. Less than 
two weeks ago pro-Beijing lawmakers in the Legislative Council 
tried to remove lawmaker James To, who by the way was 
originally supposed to be a witness at today's hearing but 
couldn't come because of Legislative Council business. But they 
have tried removing him from chairing the bills committee that 
is responsible for vetting the extradition bill and replacing 
him with a pro-Beijing lawmaker.
    What are the developments since then? How are pro-Beijing 
legislators abusing procedures to bypass the concerns of pro-
democracy advocates regarding this extradition bill, and quite 
frankly, a lot of other legislation that's important?
    Mr. Martin Lee. In fact, interestingly, there are now two 
bills committees, one chaired by James To, and the other one 
chaired by a pro-Beijing guy. It happened this way. After two 
attempts, two meetings chaired by James To because he was the 
most senior member. So by tradition, he chairs the meeting for 
the election of a chairman and deputy chairman. But because a 
number of questions were asked of him, and he had to answer 
them, and some people were filibustering, no decision was made 
after the first meeting. Nor was a decision made after the 
second meeting.
    Then the pro-Beijing people got fed up and they decided to 
get rid of him. But instead of even meeting to do that, they 
did it by circulation of papers, which is unheard of, because 
you cannot do that. If there is only one guy objecting, you 
cannot do it by circulation of papers.
    Anyway, they did it in this stupid way and succeeded, they 
thought, in electing another chairman, Mr. Shek, for their 
bills committee. And then they did not attend the original one 
under James To.
    So when James To conducted a third meeting, the pro-Beijing 
people were not there because they decided to cancel it. But 
they had no authority. James To was still the chair.
    Chair McGovern. Right.
    Mr. Martin Lee. So they elected James To as a chairman of 
the bills committee. So they, themselves, then--the other 
people also elected this Mr. Shek of their bills committee.
    Now there are two, and I do not know how they are going to 
sort it out. So that is the state of affairs. It's interesting. 
This is unheard of. This is new territory.
    Chair McGovern. Right.
    Mr. Law. But let me supplement what Martin just said, that 
there is an imminent threat that is posed by these kinds of 
ruthless acts from the pro-Beijing camp. And they are actually 
violating the tradition of our Legislative Council by bypassing 
the bills committee and getting the bill directly to our 
general meeting, which means that they could get rid of all 
this detailed scrutiny in the bills committee that we used to 
have, and then get the government's version of the bill 
directly to the general meeting.
    So it means that if they are determined to do so, it could 
be put in the meeting next week. So this is a very urgent case, 
and it could happen within a month's time.
    So I think it is very important for us to say that the Hong 
Kong issue is very urgent. Attention to this bill is very 
urgent. And the trade war . . . maybe in a more long-term 
perspective. But this thing we have to focus on is where to put 
attention and put pressure now.
    Chair McGovern. Clearly, they are trying to rig the system. 
And that's--I just have a couple more questions, then I'll let 
everybody close with whatever we forgot to ask.
    Mr. Martin Lee. Don't worry, Mr. Chairman. We are going to 
waive our lunch.
    Chair McGovern. I want you to come back if we need you.
    The transshipment of dual-use and sensitive technology and 
the effective enforcement of U.S. sanctions has been a priority 
of U.S.-Hong Kong relations, particularly over the past year. 
There have also been reports of sanctions evasions by Huawei 
executive Meng Wanzhou through a Hong Kong-based company.
    What is your assessment of Hong Kong as a transshipment 
point for restricted dual-use items--especially given the 
egregious human rights abuses in Xinjiang? Do you see Hong Kong 
as a potential transfer point for technologies that the Chinese 
government is using to suppress the Uyghur people?
    Mr. Law. Well, I think the evidence of the Hong Kong 
government being used as a ``white glove'' for the Chinese 
government, bypassing all the trade restrictions, importing 
dual-use technology goods into Hong Kong, is quite clear. And 
for us, we have to consider the economic situation in Hong 
Kong, and we try not to harm the general economic trade 
conditions in Hong Kong.
    We as an international city, as a free trade center, do not 
want to be accused of being a ``white glove'' for any regime to 
bypass any restriction. So I think restoring the reputation of 
Hong Kong is very important.
    Mr. Lee Cheuk Yan. I think it's the responsibility of 
Carrie Lam to make sure that this does not happen. And imagine 
in Hong Kong, we have the economic trade office here. And they 
should assure the American public and Congress that this is not 
happening because these are the values of Hong Kong as an 
international city.
    So I think Carrie Lam has to be responsible if any of this 
happens. And we hope--of course nothing of this sort has 
happened. But this is an administrative measure to make sure 
that Hong Kong remains as it is, a fair playing field for all.
    Mr. Martin Lee. In the words of your Consul General in Hong 
Kong, Kurt Tong, the Hong Kong government is but a proxy of the 
Beijing government.
    Chair McGovern. Right.
    Mr. Martin Lee. That is a problem.
    Chair McGovern. I have one final question. Mr. Lee, this is 
for you. And then I will ask everybody here to sum up any last 
thoughts you have. This year is the 30th anniversary of the 
violent suppression of the 1989 Tiananmen protests. And as the 
secretary of the Hong Kong Alliance in support of patriotic 
democratic movements in China, you have helped to organize the 
annual Candlelight Memorial for Tiananmen Square in Hong Kong.
    My question is, what is the legacy of the Tiananmen 
protests in Hong Kong? How do the people of Hong Kong remember 
this event? What kind of impact does it have on their views 
about the Chinese government?
    Mr. Martin Lee. Mr. Chairman, it should be the other Mr. 
Lee.
    Chair McGovern. Oh, I'm sorry.
    Mr. Lee Cheuk Yan. Yes, thank you for the question.
    Chair McGovern. My apologies.
    Mr. Lee Cheuk Yan. You know, my generation is the 89 
generation where we started our fight. And I think it is the 
same with Mak Yin-ting. We were on the same flight that tried 
to come back to Hong Kong on June 5th. She got back to Hong 
Kong, but I was forced off the plane and arrested, only getting 
back to Hong Kong three days later on the 8th.
    So we are this generation that wants to change China, wants 
to fight for democracy in China. And because we believe it's 
not about China. It is also about Hong Kong. It is the 
aspiration for democracy. Our values, our way of life in Hong 
Kong is also threatened if China--as it is now a totalitarian 
regime. And so it's very important that we continue the fight.
    This year coming will be the June 4th candlelight vigil. I 
hope that, as we have suggested, there can be a congressional 
delegation to Hong Kong. It's quite easy to fly to Hong Kong, 
and to make it before June 4th even for our candlelight vigil, 
when 100,000 people will light candles to preserve their memory 
and also pass it on to the younger generation.
    But recently, we have harassment. We have harassment. We 
tried to set up a June 4th Museum. The June 4th Museum is an 
effort to educate the Hong Kong younger generation and the 
public, and also, mainland visitors to Hong Kong can go to our 
museum to see what happened 30 years ago when all of China 
cannot mention the word June 4th.
    There were activists that brewed a wine that sold for 89.64 
renminbi that says ``Remember June 4th'' as a label. They were 
arrested and jailed for three years just for that wine. And 
that is the extent the regime will go to, to wipe out the whole 
memory.
    And so in Hong Kong we are very strategic in that sense 
that we preserve their memory. And it's very important to fight 
forgetfulness or wiping out memory with memory. We are trying 
to preserve that.
    But our June 4th Museum is being constantly harassed. There 
are protests downstairs. There are people sitting outside our 
June 4th Museum. There are people that storm into our museum 
and then pour saltwater on our electric sockets trying to delay 
our opening.
    So there is a lot of harassment of our freedom to 
commemorate. But we will try to preserve that, and we will 
continue to fight. Thank you.
    Ms. Mak. The media are also working to fight against the 
wipeout of memory. A group of 64 reporters writing books about 
it--you know, a factual account of the brutal suppression of 
the opposition democratic movement in China in 1989. And we 
periodically update the books so that people will not forget, 
because the Chinese government will not allow room for people 
to tell the factual account of this.
    And this year, we also published box videos so that the new 
generation will know what is happening. So that kind of war 
against the wiping out of memory needs all of us on it.
    Chair McGovern. I think that that is incredibly important 
because I think this is one of the weapons the Chinese 
government is using now not only with regard to the uprisings 
in 1989, but to a whole bunch of other histories to try to 
erase the history. A few years ago, I was with then-leader 
Pelosi. And we were allowed to go to Lhasa. And we went to the 
museum, and I was just amazed that there was a whole bunch 
missing.
    [Laughter.]
    Chair McGovern. There's no mention of the Dalai Lama. 
There's no--you can't buy--I mean not only the museum--you 
can't buy a book. So they choose to basically try to erase that 
memory and believe that in a couple of generations people will 
forget.
    What they don't count on is that people don't forget. And 
you can ban books, and you can ban pictures in museums and 
exhibits, but people tell their children, and their children 
tell their children, and they tell their children. And it just 
doesn't go away. In fact, in many respects, these memories 
become even stronger. So we appreciate your efforts there.
    And I am going to ask you guys . . . any final comments 
that you would like to make? This is your opportunity; have we 
missed anything or any last thing you want to say for the 
record?
    Mr. Martin Lee. Mr. Chairman, we are of course eternally 
grateful to you and your members for conducting this hearing in 
a timely manner because time is not on our side. And whereas 
people will be concerned about the trade war between the U.S. 
and China, of course, it will take a generation to sort that 
out.
    But this particular one is much more narrow and is 
completely achievable. So we would urge you and your colleagues 
to do the sorts of things, consider the things we have 
suggested to you at this hearing. And we thank you very much 
indeed.
    Chair McGovern. Anybody else?
    [No response.]
    Chair McGovern. Well let me just say--let me also thank the 
members of this Commission who showed up here today, my cochair 
Senator Rubio. And I want to thank the staff of the 
Commission--Director Jon Stivers, Sabrina Tsai, who did the 
bulk of the work preparing for this hearing, and so we are 
grateful to her. I want to thank Judy Wright and Scott Flipse, 
who also helped out. And I want to thank everybody for being 
here.
    I'll just close by saying that I thought today's testimony 
was incredibly powerful. I think that you have made clear for 
us the urgency of this situation, and we are on the side of the 
people of Hong Kong. And we are on your side on this, and we 
will certainly take your suggestions seriously and do the 
necessary follow-up.
    I look forward to our meeting again very soon. Thank you 
very much. The hearing is adjourned.
    [Whereupon, at 12:22 p.m. the hearing was concluded.]
 
      
=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                        Statement of Martin Lee

                  ``No More Safe Harbor in Hong Kong''

    Thank you for the invitation to this hearing at a moment of genuine 
crisis for Hong Kong and our free society.
    Until today, there have been no extradition arrangements between 
mainland China and many countries with the rule of law, such as 
Britain, Canada, and the United States. There is a good reason for 
this; namely, that the standards of the legal and judicial systems of 
mainland China are not, as acknowledged even by Chinese leaders, up to 
international standards.
    The heart of this crisis is that Beijing views extradition as a 
political tool--not as a legal matter.
    Before and after the 1997 handover of Hong Kong from the U.K. to 
China, we have fought to preserve our rule of law under the principle 
of ``one country, two systems'' guaranteed by the Sino-British Joint 
Declaration which was entered into by the British and Chinese 
governments in December 1984.
    For generations, Hong Kong has been a safe harbor from the chaos of 
Communist China. Yet in February 2017, Chinese-Canadian billionaire 
businessman Xiao Jianhua was abducted in Hong Kong at the Four Seasons 
Hotel by mainland agents and spirited off to China and not seen since.
    In 2015, five Hong Kong publishers vanished. One of them, Lam Wing-
kee, recalled how he was kidnapped and forced to make a televised 
confession. ``I want to tell the whole world,'' Lam said after 
escaping. ``This isn't about me, this isn't about a bookstore, this is 
about everyone.''
    The reason these people were abducted is that there is no 
extradition law between Hong Kong and China. If the U.S. and other 
governments around the world don't act immediately to pressure Beijing 
and Hong Kong to withdraw the changes, the Hong Kong government will 
ram through by early July an extradition law that will legalize 
kidnapping and threaten to destroy Hong Kong's free society. The law 
will allow Hong Kong's Chief Executive Carrie Lam, who has shown no 
independence from Beijing, to transfer anyone at China's request, 
requiring only a simple affidavit that a ``crime'' of some kind has 
happened.
    If, in the future, the Chinese government wishes to have someone 
brought to the mainland, will the Hong Kong government really be in a 
position to reject any such request? On the contrary, once a request is 
made, such an application will very likely be approved, as the Hong 
Kong government will not dare to act against the Chinese government's 
wishes. And there is little that the judges in the Hong Kong courts can 
do since all that is required is proof of a prima facie case.
    As reported, President Xi Jinping said in a closed-door meeting 
last year that China will follow ``law-based governance'' and develop 
its legal system in a way that best corresponds to its needs, but it 
will never embrace the judicial independence of the West. For Hong Kong 
people, it is a sign that we need to fortify our legal system as the 
last barrier against Beijing's political intrusions.
    In April, 130,000 Hong Kong citizens turned out in our city's 
narrow streets to oppose extradition to China. But public opinion can't 
stop this law.
    Over the past five years, Beijing disqualified six elected Hong 
Kong pro-democracy legislators--including youth leader Nathan Law, who 
you will hear from today. Control of the Legislative Council is 
assured. Despite efforts by democratically elected legislators, 
including unprecedented fisticuffs in the Legislative Council last 
Saturday, the Hong Kong government has the votes to rubberstamp the 
extradition law quickly.
    The U.S. has a special interest in blocking this law--and indeed 
may be Beijing's special target of the law. There are 85,000 U.S. 
citizens living or working in Hong Kong, which for decades has been a 
safe harbor for those operating in greater China--teachers and 
preachers, as well as executives of 1,300 U.S. companies in Hong Kong, 
including financial services firms and technology giants like Google.
    Beijing could extradite Americans in Hong Kong on trumped-up 
charges as a way to extract company trade secrets, software, and other 
intellectual property. The U.S. has no extradition law with China, but 
it does with Hong Kong. This means Americans either resident in Hong 
Kong or visiting Hong Kong could end up jailed in China.
    The American Chamber of Commerce in Hong Kong strongly objected to 
the proposed extradition law, citing ``grave concerns'' about the 
absence of the rule of law in China. The U.S.-China Economic and 
Security Review Commission, a group that advises Congress, says the 
change in extradition law ``could pose significant risk to U.S. 
national security and economic interests in the territory,'' allowing 
``Beijing to pressure the Hong Kong government to extradite U.S. 
citizens under false pretenses.'' The commission noted that U.S. Navy 
personnel could be at risk during routine port calls in Hong Kong's 
deep harbor. In the case of Canada's arrest of the chief financial 
officer of mainland telecommunications giant Huawei, Beijing objects to 
Canada extraditing the accused to the U.S. to face charges, treating it 
as a matter of international politics, not extradition law.
    The Hong Kong government claims it is rushing through changes in 
extradition to close a so-called legal ``loophole''--but this supposed 
loophole has existed for more than two decades. The loophole is no 
threat to Hong Kong citizens' freedom, whereas the proposed amendments 
to the extradition law certainly are.
    By demanding this law, Beijing violates the spirit of the Joint 
Declaration, with its ``one country, two systems'' pledge that Hong 
Kong would not be forced to adopt Communist laws and systems and could 
remain an international city safeguarded by the rule of law.
    Hong Kong became a world-class city in part because of the trade 
that flows through our harbor. The legal protections for its residents 
from the U.S. and around the world are an equally important safe 
harbor.
    If this extradition law is passed, Americans and many other 
nationalities could become potential hostages to extradition claims 
driven by the political agenda of Beijing.
    The time to protect Hong Kong's free society and legal system is 
now--not when our rule of law is compromised and Hong Kong people and 
others are taken to be jailed in China.
                                 ______
                                 

                        Statement of Nathan Law

    Chairman McGovern, Cochairman Rubio, and Members of the Committee, 
thank you for inviting us to speak here today.
    When this committee last held a hearing on Hong Kong two years ago, 
my good friend and colleague Joshua Wong presented on the threats to 
Hong Kong. Shortly after that, both he and I were imprisoned for our 
roles in the Umbrella Movement of 2014--the largest pro-democracy 
demonstrations on Chinese soil since the 1989 Tiananmen massacre.
    We both served jail sentences before ultimately winning an appeal. 
But Joshua Wong has since faced a separate charge related to the same 
protests. For the past 17 months, he has been entangled in the legal 
process as he waits for yet another appeal.
    This legal nightmare that we youth leaders have endured is part of 
a larger strategy by Beijing and the Hong Kong government to silence 
critics and threaten Hong Kongers not to participate in peaceful 
protest.
    I was elected in September 2016 to Hong Kong's Legislative Council 
as the youngest legislator in Hong Kong's history. It was a victory for 
the Hong Kong people and our aspirations. But after serving for almost 
a year, I and five other legislators were unjustly ejected from the 
legislature under Beijing's political suppression. It is seen as 
retaliation by the government toward the Umbrella Generation and to 
stifle our demand for democracy.
    Lam Wing-kee, the former owner of Causeway Bay Books and one of 
five publishers who disappeared from Hong Kong in 2015, also testified 
at this committee's previous hearing on Hong Kong. Last month, he left 
Hong Kong for Taiwan, saying that the proposed extradition arrangements 
between Hong Kong and China in the future threaten his freedom.
    If the extradition changes are passed, then people like Mr. Lam 
will not even have to be illegally abducted to the mainland because, by 
that point, the legal mechanism to do so will be in place.
    Indeed, in mainland China, journalists, human rights lawyers, 
women's rights activists, internet critics, and others who have irked 
the Communist Party have routinely faced a range of nonpolitical-
related crimes. One of them is Gui Minhai, another Causeway Bay 
bookseller, who was forced to confess on television three years ago to 
his involvement in a supposed fatal traffic accident. As of today, he 
remains detained in China.
    This goes to the heart of what Hong Kong people truly fear: that 
those of us who dare speak out to defend human rights and demand the 
democracy promised to Hong Kong will risk trumped-up arrest. It imposes 
a chilling effect on everyone who has a different opinion from the 
Chinese Communist Party.
    It is very important that the international community is alerted to 
what is happening in Hong Kong, our home, which has long been at the 
forefront of the clash of authoritarian and liberal values.
    Since the Umbrella Movement ended five years ago without achieving 
universal suffrage for Hong Kong, the situation there has further 
deteriorated. Today, our struggle continues in the face of these 
proposed extradition arrangements, which will be detrimental to Hong 
Kong's free society, our status as a global financial center, and our 
``high degree of autonomy'' as guaranteed by the Sino-British Joint 
Declaration of 1984.
    The extradition laws will threaten not only ordinary Hong Kong 
citizens but also any foreigner, including American citizens, visiting, 
studying, and working in the territory.
    Our generation is especially concerned about being sent to a place 
that does not respect human rights or fair judicial procedure. Last 
year, two members of Demosisto, our youth political group, were 
separately detained in China, taken to a hotel, and interrogated by 
authorities for hours. Their phones were confiscated. They were asked 
to provide names of more members. Our friends were also asked many 
questions, including about protest activities in Hong Kong and views on 
Tibetan independence.
    There was no legitimate reason to detain our colleagues. There is a 
real possibility that this conduct will be normalized soon, and we will 
expect to hear similar stories time and again. Or maybe we won't hear 
the stories--because my colleagues will simply make a forced confession 
and be sent to jail. Hong Kong will no longer be safe.
    The fear of losing the rule of law is not an abstraction for us. 
Two weeks ago, the largest demonstration since 2014 occurred when 
130,000 Hong Kong people took to the streets to demand the revocation 
of these extradition arrangements.
    Yes, it is an uphill battle, but we can win and reverse the 
downward trend in Hong Kong. We need to restore hope and encourage more 
people to continue fighting for their liberty. I am still fighting and 
confident that Hong Kong is China's best hope for democracy.
    Backing from the international community will be crucial to 
achieving this goal. Therefore, I urge the U.S. to continue voicing 
concern and pointing out how American interests in Hong Kong will be 
harmed by the extradition arrangements.
    This position should be made explicit in all discussions with the 
Chinese government to ensure that Beijing understands the potential 
economic consequences if it does not uphold its promises to Hong 
Kongers. I also hope that more members of Congress will be willing to 
place human rights at the center of future American policy on Hong 
Kong.
    I came from Hong Kong to explain the Chinese Communist Party's 
escalating efforts to undermine our autonomy, open and free traditions, 
and way of life. A victory for the oppressive Beijing government would 
be a victory for authoritarianism anywhere in the world; a victory for 
the Hong Kong people is a victory for freedom everywhere in the world.
    It is my hope that the Hong Kong Human Rights and Democracy Act can 
garner more support. The bill will send an unmistakable signal to China 
and the world that this country remains committed to the universal 
values we all share.

                                 ______
                                 


                       Statement of Mak Yin-ting

        ``Hollowing Out Hong Kong as a Global Information Hub''

    Thank you, Mr. Chairman and the Commission, for your concern about 
Hong Kong.
    Hong Kong has long been a beacon of press freedom and publishing in 
Asia, and especially in relation to China, where there is no free media 
and the state controls all journalists.
    I have been a working journalist for thirty-five years and have 
headed the Hong Kong Journalists Association for nine different terms. 
I am the co-author of the annual report on freedom of expression in 
Hong Kong for the last two decades. I initiated the annual Press 
Freedom Index in Hong Kong as well.
    According to the government, there are 68 daily newspapers, 607 
periodicals, and six electronic media--television, radio, and cable. 
There are nearly 3,000 local and international journalists. Many 
international media such as the New York Times, CNN, the Wall Street 
Journal, Reuters, and Bloomberg make Hong Kong their regional hub.
    But our media freedom is not as healthy as those numbers would 
suggest. Freedom of expression and of the press have taken a sharp 
downward turn in Hong Kong, with the dive particularly apparent since 
President Xi Jinping took power in 2012. An annual press freedom survey 
conducted by Reporters Without Borders shows that Hong Kong has dropped 
from being ranked 54th in 2012 to 73rd this year, out of 180 countries.
    Self-censorship is on the rise as China's influence increases--
whether it is through the co-option of media workers or the buyout of 
media outlets. Sometimes, mere public statements by Chinese officials 
are enough to influence reporting by the Hong Kong media, without the 
need to issue direct instructions.
    According to a survey conducted by the Hong Kong Journalists 
Association earlier this year, 70 percent of media workers who 
responded said they felt uneasy when they reported opinions that 
deviated from the stance of central government in Beijing. And 22 
percent of journalists said they had come under pressure from 
supervisors while reporting on issues related to Hong Kong 
independence. The figures carry even more weight when we consider that 
political reporters--who would report on these issues--make up only a 
small percentage of the total number of respondents.
    Adding to these existing pressures, the changes to Hong Kong's 
extradition law will threaten journalists because it will chill 
reporting, make reporters and editors vulnerable to pressure from 
Beijing, and hollow out Hong Kong's status as a global information hub.
    With ``incitement of any crime'' listed in the schedule of the 
bill, and therefore an extraditable offense, the media--whose nature it 
is to report on things that have impact--can easily fall foul of it. 
What's more, Chinese government officials are notorious for making up 
offenses to stop media from reporting.
    The legal changes will mean Hong Kong can no longer be a ``safe 
harbor'' for reporters covering sensitive news in mainland China 
because the proposed amendment allows the Chinese government to request 
the return of the targeted reporters. The natural consequence will be 
either a decrease in the quantity and quality of news on China--or the 
exodus of valuable news workers to other places where China cannot 
request extradition. Or both.
    These outcomes will devastate Hong Kong as an information and 
financial center for the region. It is therefore in the interest of 
Hong Kong and the U.S., as well as other parts of the world, to urge 
the Hong Kong Government to withdraw the bill.
    Thank you for your support of press freedom in Hong Kong.
                                 ______
                                 

                       Statement of Lee Cheuk Yan

    Thank you for the invitation to this hearing on the state of Hong 
Kong and ``one country, two systems.''
    This year is the 30th anniversary of the June 4th massacre in 
Tiananmen Square and cities across China.
    In 1989, I was then a hopeful young labor and democracy activist 
who went to Beijing to support the democracy movement. I will never 
forget the day when one million Hong Kong people marched the narrow 
streets to show their support for democracy in China--which we all 
understood to mean that Hong Kong, too, could realize our aspirations 
for democracy.
    Our hopes for democracy both in China and in Hong Kong were crushed 
when the tanks rolled into Tiananmen Square on June 4th, 1989. The 
brutality of the Chinese Communist regime was on display then, as now. 
This June 4th will mark thirty years since that terrible crackdown.
    Freedom of protest and expression are what distinguish Hong Kong 
from China. There cannot be even one candle lit in Tiananmen Square 
without immediate arrest.
    Although democratic dreams were denied in China, the roots of 
freedom took hold in Hong Kong, and despite constant pressure from 
Beijing, have grown. Our civil society has been under constant threat 
but has proven resilient.
    I have now worked in the free trade union movement in Hong Kong for 
more than three decades. From our base in Hong Kong, we have been able 
to support trade unionists and workers who are risking their lives and 
jail to expose dangerous abuses, wage cheating, and labor crackdowns in 
China. I have also been a leader of the group that annually organizes 
the moving candlelight vigil in Hong Kong's Victoria Park to remember 
the victims of the June 4th massacre.
    Hong Kong people's June 4th vigil is coming up next month. It is 
still the only place on Chinese soil where the truth can be heard and 
where we can counter the efforts by China's communist leaders to wipe 
away the memory with lies and technology.
    For Hong Kong people the vigil is about our own aspirations for 
democracy. It is a night when parents bring their children to pass on 
their dreams for a democratic future.
    The proposal by the Hong Kong Chief Executive to enter into an 
extradition agreement with China will deliver a further severe blow to 
Hong Kong's high degree of autonomy and will have dire effects on our 
freedom, the rule of law, and our economic foundation as an 
international city.
    Unfortunately, as a labor and democracy leader and longstanding 
critic, I represent the type of Hong Kong citizen who is threatened by 
the extradition law changes. Aside from the human rights activists who 
make their base in Hong Kong, this proposal has already caused 
widespread fear among the business and professional sectors and 
political and civil society.
    Hong Kong people have experienced firsthand the infamous Chinese 
judicial system when they work in and visit China. We know it is a 
captive of the Communist Party and notorious for trumped-up charges and 
forced televised confessions. If the extradition law passes, any person 
in Hong Kong, including foreign nationals, can be at risk to be sent 
back to China for trial.
    We have fought very hard to preserve freedom and our way of life in 
Hong Kong since the handover 22 years ago this July. But since Xi 
Jinping came to power, our rule of law and way of life is deteriorating 
very fast.
    Over the last five years, we have already seen big changes; we now 
have political prisoners jailed for leading the peaceful Umbrella 
Movement.
    In April, nine Umbrella leaders were convicted, and some were 
jailed. These bogus prosecutions show the willingness of the Hong Kong 
government to deploy the legal system for political ends and are 
designed to have a chilling effect on our whole population.
    The extradition law will replace Hong Kong's rule of law with rule 
by fear--as it is practiced in China. But we are always hopeful because 
the people of Hong Kong are fighting back. Recently more than 130,000 
citizens took to the streets protesting against this proposal, and many 
business and professional groups are forcefully voicing their 
opposition.
    Now we ask the international community to speak up--before it is 
too late. The battleground of the clash of two sets of values is now 
laid out in Hong Kong. We hope the American people stand with us in 
this fight.
                                 ______
                                 

                   Statement of Hon. James P. McGovern

    Good morning, and welcome to the first hearing of the 
Congressional-Executive Commission on China for the 116th Congress. The 
title of today's hearing is ``Hong Kong's Future in the Balance: 
Eroding Autonomy and Challenges to Human Rights.''
    In recent years, there has been a steady erosion of Hong Kong's 
autonomy that was enshrined in the ``one country, two systems'' 
framework established by the 1984 Sino-British Declaration and Hong 
Kong's Basic Law.
    Under ``one country, two systems,'' the Chinese government agreed 
to allow Hong Kong a ``high degree of autonomy'' with the ``ultimate 
aim'' of electing its Chief Executive and Legislative Council members 
by universal suffrage.
    The Chinese government reiterated this commitment as recently as 
2007 when the Standing Committee of the National People's Congress 
stated in a decision that universal suffrage may apply to the Chief 
Executive election in 2017 and the Legislative Council after that.
    It was the reneging on the commitment to make Hong Kong more 
democratic that sparked the 2014 Umbrella Movement pro-democracy 
protests that lasted 79 days in the streets of Hong Kong.
    We continue to call upon the Chinese and Hong Kong governments to 
restart the electoral reform process and work toward genuine universal 
suffrage in the Chief Executive and Legislative Council elections, in 
accordance with articles 45 and 68 of the Basic Law and article 25 of 
the International Covenant on Civil and Political Rights.
    Since the Umbrella Movement protests, Chinese and Hong Kong 
authorities have ramped up efforts to stifle the pro-democracy movement 
by:

     Removing six legislators from office;
     Banning the Hong Kong National Party and barring potential 
candidates from running in elections based on their political views;
     Expelling Financial Times Asia news editor Victor Mallet for 
hosting an event with a pro-independence advocate;
     Arbitrarily detaining and abducting Hong Kong booksellers. We 
continue to call for the immediate and unconditional release of 
bookseller Gui Minhai who is still detained in China;
     Prosecuting and sentencing Umbrella Movement leaders and other 
pro-democracy advocates for peaceful civil disobedience;
     Introducing a National Anthem Bill that stifles free expression;
     Proposing new amendments to Hong Kong's extradition laws which, 
if passed, will allow extradition to mainland China, where the criminal 
justice system is regularly used as a tool of repression against 
political dissenters and rights advocates.

    And just this morning we learned that a Hong Kong court reached a 
guilty verdict against six pro-democracy advocates involved in the 
November 2016 peaceful protests on the Chinese government 
interpretation of the Basic Law concerning oath-taking. Many regarded 
the interpretation as direct Chinese government involvement in the 
disqualification of certain legislators--including Nathan Law, who is 
here with us today.
    The ruling signals a further chilling effect on political 
participation, as people are deterred from taking part in 
demonstrations by the punishment levied against pro-democracy 
advocates.
    I believe it is time for the United States to consider new and 
innovative policies to support the people of Hong Kong. U.S.-Hong Kong 
relations are governed by the U.S.-Hong Kong Policy Act of 1992 that 
commits the United States to treating Hong Kong as a separate customs 
territory from the rest of China, so long as Hong Kong remains 
``sufficiently autonomous.''
    In the last Congress, then-Chairman Rubio and then-Cochairman Chris 
Smith introduced the ``Hong Kong Human Rights and Democracy Act.'' 
Among other provisions, the legislation would require the Secretary of 
State to certify on an annual basis that Hong Kong is ``sufficiently 
autonomous'' to justify special economic, financial, and trade 
treatment under U.S. law that is not extended to mainland China.
    Considering the events of the last year, I am interested in hearing 
from the witnesses about what actions they believe the U.S. should be 
taking to support the people of Hong Kong.
    Over the years, Hong Kong has prospered and become the financial 
center of Asia because of its strong commitment to the rule of law, 
good governance, human rights, and open economic system.
    It is a city where the people have had the ability to advance new 
ideas and innovate. The erosion of this unique system threatens not 
only the people who attempt to speak out, but the economic vitality of 
the city itself.
    To be clear, we stand together with the people of Hong Kong and 
indeed all the people of China when we express our concern about the 
policies of the Chinese and Hong Kong governments.
    Our focus today is doing right by the people of Hong Kong, and our 
panel this morning traveled all the way from Hong Kong to provide their 
testimony. The panel includes:

     Martin Lee, founding chairman of the Democratic Party of Hong 
Kong, former member of the Drafting Committee for the Basic Law, and 
former member of the Legislative Council of Hong Kong. Mr. Lee will 
focus his remarks on the general trends of democracy and human rights 
in Hong Kong and Chinese government interference in the city.
     Nathan Law, founding chairman of Demosisto and former member of 
the Legislative Council. Mr. Law's remarks will shed light on youth 
perspectives of the democracy movement in Hong Kong and the challenges 
they face.
     Mak Yin-ting, journalist and former chair of the Hong Kong 
Journalists Association. Ms. Mak will focus on press freedom and the 
treatment of journalists in Hong Kong.
     Lee Cheuk Yan, general secretary of the Hong Kong Confederation 
of Trade Unions and member of the Executive Committee of Hong Kong 
Civil Hub. Mr. Lee will share his experiences of advocacy for labor 
rights in Hong Kong and efforts to support democracy in mainland China.

    Thank you all for being here today and we look forward to hearing 
your testimony and recommendations.
                                 ______
                                 

                     Statement of Hon. Marco Rubio

    I want to thank the Chairman for convening this important hearing. 
As we have observed over the last five years, Hong Kong's autonomy and 
freedoms that are guaranteed by the Joint Declaration and their Basic 
Law are eroding rapidly due to the interference of the Chinese 
Communist Party's government in the affairs of Hong Kong.
    I want to thank the witnesses. You are all true champions of 
freedom and democracy and you appear today, as we know, under both 
threat and risk to yourself and to those you care about.
    The last year has been particularly troubling since the last time 
this Commission had a hearing on this issue. The Hong Kong government 
banned the National Party, disqualified political candidates for office 
for their political views, expelled the Financial Times news editor, 
and sentenced the 2014 Occupy Central organizers and other pro-
democracy leaders to prison terms of between eight and sixteen months.
    We just learned this morning that the Hong Kong Court has issued 
guilty verdicts for six pro-democracy advocates who participated in the 
2016 demonstration against the Chinese government's interpretation of 
oath-taking that led to the disqualification of the pro-democracy 
legislators. Most recently, and equally concerning, are amendments to 
the extradition laws that are being, at this moment, debated in the 
Legislative Council and protested in the streets.
    Mr. Martin Lee's apt description of the proposed amendment . . . 
that it will ``legalize kidnapping''--legalized kidnapping--that should 
be something that should concern everyone. That includes, by the way, 
85,000 U.S. citizens who are living in Hong Kong. It is one of the 
reasons why I'll be reintroducing the Hong Kong Human Rights and 
Democracy Act which updates our Hong Kong policy and establishes 
punitive measures against government officials responsible for 
suppressing fundamental freedoms in Hong Kong.
    I want to make this point. We have important challenges in our 
relationship with China. We have a variety of issues that I hope we can 
find agreement on, but the future of Hong Kong and human rights in 
general cannot be sidelined as part of those conversations, and I 
continue to encourage the administration and others involved in these 
talks to make that point.
    Recently, you may or may not be aware, CBS network television 
censored eight minutes out of the show ``The Good Fight'' because it 
contained a cartoon that criticized American corporations that are 
bowing to Chinese censorship. CBS claimed that it feared for the 
welfare of its journalists in Beijing if a critical cartoon were 
broadcast on an entertainment show in the United States.
    So think about that--a major American network censored a television 
show; it was afraid to offend China and as a result put our journalists 
at risk operating within China. I think it's a good opportunity to talk 
a little bit about censorship and how it manifests itself in Hong Kong.
                       Submissions for the Record

                              ----------                              


                     Submission of Hon. Chris Smith

               [From the Washington Post, Dec. 28, 2018]

        ``The World Must Stand Against China's War on Religion''

                   (By U.S. Congressman Chris Smith)

    Mihrigul Tursun said she pleaded with God to end her life as her 
Chinese jailers increased the electrical currents coursing through her 
body. Tursun, a Muslim Uighur whose escape led her to the United States 
in September, broke down weeping at a Nov. 28 congressional hearing as 
she recounted her experience in one of China's infamous political ``re-
education centers.''
    It is an appalling story but one that is all too familiar as 
existential threats to religious freedom rise in President Xi Jinping's 
China. The world can't ignore what's happening there. We must all stand 
up and oppose these human rights violations.
    The ruling Chinese Communist Party has undertaken the most 
comprehensive attempt to manipulate and control--or destroy--religious 
communities since Chairman Mao Zedong made the eradication of religion 
a goal of his disastrous Cultural Revolution half a century ago. Now 
Xi, apparently fearing the power of independent religious belief as a 
challenge to the Communist Party's legitimacy, is trying to radically 
transform religion into the party's servant, employing a draconian 
policy known as sinicization.
    Under sinicization, all religions and believers must comport with 
and aggressively promote Communist ideology--or else.
    To drive home the point, religious believers of every persuasion 
are harassed, arrested, jailed or tortured. Only the compliant are left 
relatively unscathed.
    Bibles are burned, churches destroyed, crosses set ablaze atop 
church steeples and now, under Xi, religious leaders are required to 
install facial-recognition cameras in their places of worship. New 
regulations expand restrictions on religious expression online and 
prohibit those under age 18 from attending services.
    Government officials are also reportedly rewriting religious 
texts--including the Bible--that remove content unwanted by the atheist 
Communist Party, and have launched a five-year sinicization plan for 
Chinese Protestant Christians.
    These efforts have taken a staggering human toll. In recent months, 
more than 1 million Uighurs and other Muslims in the Xinjiang Uighur 
Autonomous Region have been detained, tortured and forced to renounce 
their faith. The U.S. government is investigating recent reports that 
ethnic minorities in internment camps are being forced to produce goods 
bound for the United States.
    Yet, despite the anti-religion campaign, the Vatican has shown a 
disturbing lack of alarm concerning these threats and, instead, appears 
to be seeking a form of accommodation. In September, Vatican officials 
signed a ``provisional agreement'' that essentially ceded to the 
Chinese government the power to choose--subject to papal review--every 
candidate for bishop in China, which has an estimated 10 million to 12 
million Catholics.
    Cardinal Joseph Zen Ze-kiun, a retired bishop of Hong Kong, in 
September called the deal ``a complete surrender'' by the Vatican and 
an ``incredible betrayal'' of the faith.
    At a congressional hearing I chaired in September, Tom Farr, 
president of the Religious Freedom Institute, testified that the 
government-controlled body charged with carrying out the policy, the 
Catholic Patriotic Association, had drafted an implementation document 
containing the following passage: ``The Church will regard promotion 
and education on core values of socialism as a basic requirement for 
adhering to the Sinicization of Catholicism. It will guide clerics and 
Catholics to foster and maintain correct views on history and the 
nation.''
    One can hope that Beijing has made concessions to the church that 
have yet to be revealed. Initial reports are less than promising. Since 
the agreement was reached, underground priests have been detained, 
Marian shrines destroyed, pilgrimage sites closed, youth programs 
shuttered, and priests required to attend reeducation sessions in at 
least one province.
    The Vatican should reconsider its arrangement with the Chinese 
government. But what can be done more generally in response to Xi's war 
on religion? The United States and several European countries have 
condemned it, but any nation that values freedom of religion should 
unite in denouncing China's treatment of Muslim Uighurs, Christians, 
Tibetan Buddhists and Falun Gong practitioners. In particular, Muslim-
majority countries, strangely muted regarding the persecution of Muslim 
Uighurs, must protest these abuses even at the risk of endangering the 
benefits from China's ``Belt and Road'' infrastructure projects.
    Sen. Marco Rubio (R-FL) and I have urged the Trump administration 
to use Global Magnitsky Act sanctions to target Chinese officials 
responsible for egregious human rights abuses. We have sought expanded 
export controls for police surveillance products and sanctions against 
businesses profiting from the forced labor or detention of Uighurs. We 
have also introduced the bipartisan Uyghur Human Rights Policy Act of 
2018 to provide the administration with new tools to comprehensively 
address the abuse.
    The United States must lead the way in letting the Chinese 
Communist Party know that taking a hammer and sickle to the cross and 
enslaving more than 1 million Uighurs in an effort to erase their 
religion and culture are destructive, shameful acts that will not be 
tolerated by the community of nations.
                          Witness Biographies

    Martin Lee, founder of the Democratic Party of Hong Kong and former 
member of the Legislative Council

    Martin Lee is a veteran political leader and rule of law advocate 
in Hong Kong. He is the founding chairman of the Democratic Party, one 
of the largest and most popular political parties in Hong Kong. He was 
an elected member of the Legislative Council from 1985 to 2008. He 
served as chairman of the Hong Kong Bar Association from 1980 to 1983 
and took part in the discussions over Hong Kong's 1997 handover from 
the United Kingdom to China, joining the Basic Law Drafting Committee 
in 1985. He continues to fight for democratic protections and is the 
territory's top barrister and Senior Counsel taking on significant 
cases to protect the rule of law and the rights of political activists 
in Hong Kong. The European People's Party and European Democrats in the 
European Parliament named Mr. Lee the first non-European recipient of 
the Schuman Medal in 2000. In 1997, the National Endowment for 
Democracy presented Mr. Lee its annual Democracy Leadership Award. In 
1996, Liberal International awarded Mr. Lee the Prize for Freedom.

    Nathan Law, founding chairman of Demosisto and former member of the 
Legislative Council

    Nathan Law, Demosisto's founding chairman, was the former secretary 
general of the Hong Kong Federation of Students. In 2016, he became 
Asia's youngest democratically elected lawmaker when, at age 23, he won 
a seat in the Hong Kong Legislative Council--before Beijing intervened 
and removed him from office. He was also one of Hong Kong's first three 
political prisoners since 1997, sentenced in 2018 with Joshua Wong and 
Alex Chow for leadership roles in the peaceful pro-democracy protest 
``Umbrella Movement'' in 2014. Law recently graduated from Lingnan 
University in Hong Kong and will be pursuing a Master's degree in Asian 
Studies at Yale University in autumn 2019.

    Mak Yin-ting, journalist and former chair of the Hong Kong 
Journalists Association

    Mak Yin-ting has been a journalist in both print and electronic 
media for over 30 years. She is the former Chair of the Hong Kong 
Journalists Association and a co-author of the organization's important 
Annual Report on Freedom of Expression in Hong Kong since the 90's. Mak 
began her career at the Hong Kong Daily News in 1984 as a reporter. Mak 
joined the Press Freedom Subcommittee at the Hong Kong Journalists 
Association in 1995. She has testified and spoken globally about the 
need to preserve press freedom in Hong Kong and was honored in 2007 as 
a Champion of Freedom of Speech by the Visual Artists Guild.

    Lee Cheuk Yan, General Secretary of the Hong Kong Confederation of 
Trade Unions and member of the Executive Committee of Hong Kong Civil 
Hub

    Lee Cheuk Yan is a veteran labor leader and is on the Executive 
Committee of Hong Kong Civil Hub. He was a former member of the 
Legislative Council of Hong Kong since 1995, representing the New 
Territories West constituency for more than two decades. Lee worked for 
the Hong Kong Christian Industrial Committee since 1980, and in 1990 
helped found the Hong Kong Confederation of Trade Unions, the 
independent Union Center in Hong Kong, and is its general secretary. He 
co-founded and is Vice Chair of the Labour Party. He is Secretary of 
the Hong Kong Alliance in Support of Patriotic Democratic Movements in 
China, which organizes the annual candlelight memorial for Tiananmen 
Square--the only place the June 4, 1989 tragedy is recognized on 
Chinese soil.

                                 <all>
</pre></body></html>
